<html>
<title> - WEAPONS OF MASS DESTRUCTION: BOLSTERING DHS TO COMBAT PERSISTENT THREATS TO AMERICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


   WEAPONS OF MASS DESTRUCTION: BOLSTERING DHS TO COMBAT PERSISTENT 
                           THREATS TO AMERICA

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                AND THE

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2015

                               __________

                           Serial No. 114-26

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                          U.S. GOVERNMENT PUBLISHING OFFICE
97-915 PDF                      WASHINGTON : 2016                          
                    
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed8a9d82ad8e989e998588819dc38e8280c3">[email&#160;protected]</a>  
                   
                    
                    
                    
                    
                    COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                    John Ratcliffe, Texas, Chairman
Peter T. King, New York              Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             Loretta Sanchez, California
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Curt Clawson, Florida                James R. Langevin, Rhode Island
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Brett DeWitt, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
       Christopher Schepis, Minority Subcommittee Staff Director

                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                   Martha McSally, Arizona, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Mark Walker, North Carolina          Bonnie Watson Coleman, New Jersey
Barry Loudermilk, Georgia            Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Moira Bergin, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Prepared Statement.............................................    18
The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications........     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               WITNESSES
                                Panel I

Dr. Reginald Brothers, Under Secretary for Science and 
  Technology, U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Joint Prepared Statement.......................................    11
Dr. Kathryn H. Brinsfield, Assistant Secretary, Office of Health 
  Affairs, U.S. Department of Homeland Security:
  Oral Statement.................................................    14
  Joint Prepared Statement.......................................    11
Dr. Huban A. Gowadia, Director, Domestic Nuclear Detection 
  Office, U.S. Department of Homeland Security:
  Oral Statement.................................................    16
  Joint Prepared Statement.......................................    11

                                Panel II

Mr. Alan D. Cohn, Counsel, Steptoe & Johnson LLP:
  Oral Statement.................................................    30
  Prepared Statement.............................................    31
Mr. Rick ``Ozzie'' Nelson, Senior Associate, Homeland Security 
  and Counterterrorism Program, Center for Strategic and 
  International Studies:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Mr. Warren Stern, Former Director, Domestic Nuclear Detection 
  Office, U.S. Department of Homeland Security:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41

                                APPENDIX

Questions From Honorable Donald M. Payne, Jr. for the Department 
  of Homeland Security...........................................    51
Question From Honorable Sheila Jackson Lee for Kathryn H. 
  Brinsfield.....................................................    54
Question From Honorable Donald M. Payne, Jr. for Reginald 
  Brothers.......................................................    55
Questions From Honorable Sheila Jackson Lee for Reginald Brothers    56
Questions From Honorable Sheila Jackson Lee for Huban A. Gowadia.    57
Questions From Honorable Donald M. Payne, Jr. for Alan D. Cohn...    57
Questions From Honorable Donald M. Payne, Jr. for Warren Stern...    59
Questions From Honorable Donald M. Payne, Jr. for Rick ``Ozzie'' 
  Nelson.........................................................    59

 
   WEAPONS OF MASS DESTRUCTION: BOLSTERING DHS TO COMBAT PERSISTENT 
                           THREATS TO AMERICA

                              ----------                              


                         Tuesday, July 14, 2015

         U.S. House of Representatives,    
          Committee on Homeland Security,  
            Subcommittee on Cybersecurity, 
   Infrastructure Protection, and Security 
                          Technologies, and
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                                            Washington, DC.
    The subcommittees met, pursuant to call, at 2:09 p.m., in 
Room 311, Cannon House Office Building, Hon. John Ratcliffe 
[Chairman of the Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies] presiding.
    Present from Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies: Representatives 
Ratcliffe, Perry, Donovan, Richmond, Jackson Lee, and Langevin.
    Present from Subcommittee on Emergency Preparedness, 
Response, and Communications: McSally, Walker, Loudermilk, 
Payne, Watson Coleman, and Rice.
    Mr. Ratcliffe. The Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies and the 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order.
    Both subcommittees are meeting jointly to consider the 
Department of Homeland Security's proposal to reorganize its 
chemical, biological, radiological, nuclear, and explosive 
activities into a consolidated CBRNE office.
    During the Cold War years, the threat of nuclear 
annihilation was universally recognized. Today, there is an 
equally terrifying but persistent WMD threat. But the forms 
that such weapons could take and the bad actors seeking to 
obtain them have vastly expanded. Today's threat comes from 
Iran's pursuit of a nuclear weapon, as well as the rise of ISIS 
and other terrorist organizations that are seeking to acquire 
chemicals, biological agents, radiological or nuclear material 
to use it to set off a bomb in one of our major cities.
    While such an attack may not result in total annihilation, 
it would be a major public health and safety catastrophe, as 
well as an economic and psychological blow to the entire 
country.
    Today's threat is illustrated by several evolving 
situations unfolding across the globe. The current nuclear deal 
just announced today with Iran, if approved, could increase the 
amount of nuclear material throughout the volatile Middle East 
if Iran is in fact allowed to retain a certain amount of 
enriched uranium.
    Separately, Russia has recently announced it's pulling out 
of a decades-old Reagan administration INF Treaty which limited 
the number of nuclear weapons between the two countries. Russia 
has since moved to modernize and increase its stockpile, 
thereby making the availability of nuclear and radiological 
material that much greater.
    Simultaneously, Middle Eastern countries, like Saudi 
Arabia, are building 16 new nuclear plants even as they 
struggle to battle radical Islamists within their own borders.
    While these are greater geopolitical issues, the 
implications of the WMD threat to the U.S. homeland are 
immense. Since the collapse of the Soviet Union, Russia has 
struggled to keep tabs on its radiological and nuclear material 
across Eastern Europe. The current nuclear negotiations with 
Iran and the proliferation of nuclear material across the 
Middle East raises similar concerns of operational control of 
these sensitive materials.
    This is all happening at a time when ISIS is propagating a 
call for terrorist plots here in the United States and is 
taking control of large pieces of territory across Iraq, Syria, 
and North Africa. Terrorists and militant groups have long had 
an interest in using a WMD to attack U.S. interests, especially 
those including chemical, biological, radiological, or nuclear 
materials. ISIS has made its ambition known that it wishes to 
obtain WMD material and use it in an attack.
    Underscoring the very real possibility of this threat, 
Australian intelligence officials have publicly stated their 
belief that ISIS has already seized enough material from 
government facilities, hospitals, and universities in Iraq and 
Syria to build a dirty bomb.
    Currently, the Department of Homeland Security is organized 
to address the WMD threat through several different offices and 
directorates: The Office of Health Affairs, or OHA, the 
Domestic Nuclear Detection Office, DNDO, and elements of the 
Science and Technology, or S&T, Directorate.
    This fragmentation is in contrast to other departments and 
Federal agencies across the U.S. Government that have 
centralized WMD defense programs and have clear focal points 
for interagency collaboration. One of the major concerns we've 
heard with the current structure is that DHS doesn't have the 
stature and voice that it should among all of the agencies that 
are working to address these threats.
    In September 2013, DHS was directed by Congress to 
undertake an in-depth review of its WMD programs. The review 
also required recommendations to improve its organizational 
structure to be more effective. Unfortunately, the committee 
only received this report less than a month prior to this 
hearing, meaning that it's nearly 2 years late.
    I've had the opportunity to sit down with Dr. Gowadia, the 
director of DNDO, numerous times during my short tenure as 
Chairman and as part of my oversight responsibilities to learn 
how DNDO operates and works with its stakeholders, both 
domestically and internationally. One thing that I have 
concluded and have heard repeatedly from others is that the 
current DNDO model works, something which, unfortunately, can't 
be said right now about every DHS office.
    In support of the opinion that DNDO is one of the most 
effective offices within the Department, the most recent 2014 
edition of ``The Best Places to Work in the Federal 
Government'' ranked DNDO 11th out of 314 agency subcomponents. 
This success is built on leadership, a clear mission, and a 
well-functioning organizational structure. While DNDO hasn't 
always been a benchmark of success, the organization has 
certainly matured, and it's matured into a model that I think 
should be replicated throughout the Department.
    Now, Chairman McSally and I have convened our subcommittees 
here today to examine whether the DHS proposal to reorganize 
will support the shared opinion of most that the Department of 
Homeland Security should be doing more to guard against WMD 
threats. While the proposal to Congress lays out several 
different options and a proposed recommendation for how the 
Department would reorganize, we hope to hear more today about 
this proposed reorganization and how it will address gaps and 
strengthen the Department's posture towards WMD threats, and 
we, frankly, hope to hear some specifics.
    I want to thank Chairman McSally for joining me in this 
effort, and I thank the witnesses for being here today.
    [The statement of Chairman Ratcliffe follows:]
                  Statement of Chairman John Ratcliffe
                             July 14, 2015
    During the Cold War years, the threat of nuclear annihilation was 
universally recognized. Today, there is an equally terrifying and 
persistent WMD threat, but the forms such weapons could take and the 
bad actors seeking to obtain them have vastly expanded. Today's threat 
comes from Iran's pursuit of a nuclear weapon, as well as the rise of 
ISIS and other terrorist organizations that are seeking to acquire 
chemicals, biological agents, radiological, or nuclear material to use 
it to set off a weapon in one of our major cities. While such an attack 
may not result in total annihilation, it would be a major public health 
and safety catastrophe, as well as an economic and psychological blow 
to the entire country.
    Today's threat is illustrated by several evolving situations 
unfolding across the globe. The current nuclear deal being negotiated 
with Iran could increase the amount of nuclear material throughout the 
volatile Middle East if Iran is allowed to retain a certain amount of 
enriched uranium. Separately, Russia has recently announced it is 
pulling out of a decades-old Reagan Administration INF treaty, which 
limited the number of nuclear weapons between the two countries. Russia 
has since moved to modernize and increase its stockpile, thereby making 
the availability of nuclear and radiological material that much 
greater. Simultaneously, Middle Eastern countries like Saudi Arabia are 
building 16 new nuclear plants even as they struggle to battle radical 
Islamists within their own borders.
    While these are greater geopolitical issues, the implications for 
the WMD threat to the U.S. homeland are immense. Since the collapse of 
the Soviet Union, Russia has struggled to keep tabs on its radiological 
and nuclear material across Eastern Europe. The current nuclear 
negotiations deal with Iran and the proliferation of nuclear material 
across the Middle East raises similar concerns of operational control 
of these sensitive materials.
    This is all happening at a time when ISIS is propagating a call for 
terrorist plots in the United States and taking control of large pieces 
of territory across Iraq, Syria, and North Africa. Terrorists and 
militant groups have long had an interest in using a WMD to attack U.S. 
interests, especially those including chemical, biological, 
radiological, or nuclear materials. ISIS has made its ambition known 
that it wishes to obtain WMD material and use it in an attack. 
Underscoring the real possibility of this threat, Australian 
intelligence officials have publicly stated their belief that ISIS has 
already seized enough material from Government facilities, hospitals, 
and universities in Iraq and Syria to build a dirty bomb.
    Currently, the Department of Homeland Security is organized to 
address the WMD threat through several different offices and 
directorates, the Office of Health Affairs (OHA), the Domestic Nuclear 
Detection Office (DNDO), and elements of the Science and Technology 
(S&T) Directorate. This fragmentation is in contrast to other 
Departments and Federal agencies across the U.S. Government that have 
centralized WMD defense programs and have clear focal points for 
interagency collaboration. One of the major concerns we have heard with 
the current structure is that DHS does not have the stature and voice 
that it should among all of the agencies working to address all of 
these threats.
    In September of 2013, DHS was directed by Congress to undertake an 
in-depth review of its WMD programs. The review also required 
recommendations to improve its organizational structure to be more 
effective. Unfortunately, the committee only received this report less 
than a month prior to this hearing, meaning that it's nearly 2 years 
late.
    I've had the opportunity to sit down with Dr. Gowadia, director of 
DNDO numerous times during my short tenure as Chairman as part of my 
oversight responsibilities to learn how DNDO operates and works with 
its stakeholders, both domestically and internationally. One thing that 
I have concluded, and have heard repeatedly from others, is that the 
current DNDO model works; something which unfortunately can't be said 
about every DHS office. In support of the opinion that DNDO is one of 
the most effective offices within the Department, the most recent 2014 
edition of the Best Places to Work in the Federal Government ranked 
DNDO 11th out of 314 agency subcomponents. This success is built on 
leadership, a clear mission, and a well-functioning organizational 
structure. And while DNDO hasn't always been a benchmark of success, 
the organization has certainly matured into a model that I think should 
be replicated throughout the Department.
    Chairman McSally and I convened our subcommittees here today to 
examine whether the DHS proposal to reorganize will support the shared 
opinion of most that the Department of Homeland Security should be 
doing more to guard against WMD threats. While the proposal to Congress 
lays out several different options and a proposed recommendation for 
how the Department should reorganize, we hope to hear more today about 
how this proposed reorganization will address gaps and strengthen the 
Department's posture towards WMD threats and we hope to hear some 
specifics. I thank Chairman McSally for joining me in this effort, and 
I thank the witnesses for being here today.

    Mr. Ratcliffe. The Chair now recognizes the Ranking Member 
of the Subcommittee on Emergency Preparedness, Response, and 
Communications, the gentleman from New Jersey, Mr. Payne, for 
his opening statement.
    Mr. Payne. Thank you, Mr. Chairman.
    Good afternoon. I also want to thank Chairman McSally, 
along with you, for holding today's hearing to evaluate the 
Department of Homeland Security's proposal to reorganize 
certain chemical, biological, nuclear, radiological, and 
explosive counterterrorism programs. I understand that the 
committee may consider a Department of Homeland Security 
authorization bill later in this Congress, potentially as early 
as this fall, and that pending reorganization plan may be 
included in that.
    I caution against acting too swiftly. Experience tells me 
that the reorganizations can be distracting, disruptive, and 
demoralizing to a workforce. Indeed, the Department itself 
continues to struggle with the morale challenges that date back 
to its inception. Before acting, it is imperative that this 
committee have an understanding of the full implications and 
can ensure that the benefits outweigh the costs.
    As Ranking Member on the Subcommittee for Emergency 
Preparedness, Response, and Communications, I have particular 
concerns about how the proposed reorganization will affect 
legacy offices' relationships with the State and local response 
partners. My subcommittee has devoted a significant amount of 
time to assessing what DHS does well and what it needs to do 
better with respect to helping State and local governments 
bolster their ability to respond to biochemical threats.
    Although local first responders and the public health 
officials have noted that the Office of Health Affairs has 
improved its engagement activities in the recent years, they 
urge better coordination and more timely information sharing 
related to chemical biothreats. I'd be interested to hear what 
safeguards would be in place to prevent disruption of these 
important relationships and whether this reorganization is 
necessary to deliver the improved coordination information 
sharing that State and local responders have been seeking for 
quite some time.
    Additionally, I am interested to learn how DHS will ensure 
that there will not be winners and losers with respect to 
resources for the various CBRNE threats. For example, for the 
past several years, the Office of Health Affairs' Chemical 
Defense Program has been operating on a shoestring budget of 
about $800,000 out of an overall $125 million budget, whereas 
NBIC and BioWatch collectively eat up over $90 million.
    Meanwhile, DNDO's budget is more than double OHA's budget. 
DNDO does its own research and development and OHA does not.
    Regardless, I'll be interested to understand how the 
reorganization will affect the distribution of resources among 
the various CBRNE threat-related activities. Moreover, I'd like 
to note the proposed reorganization appears to be a bit 
lopsided. While the new CBRNE office would have R&D 
responsibilities and radiological and nuclear activities, the 
Science and Technology Directorate would retain R&D for 
chemical and biological activities.
    Accordingly, I'm interested to know whether it indicates 
that the future reorganizations may need to be down the road; 
specifically, we can expect the Department to come back in a 
year or 2 and ask for CBRNE and R&D be fully realigned in their 
S&T or CBRNE office.
    Finally, I would like to express my concern regarding the 
impact of the proposed reorganization on the activities of the 
chief medical officer. I am particularly concerned about the 
risk that CMO would lose a direct line to the Secretary and 
that the CMO's DHS workforce health responsibilities would get 
lost in a larger CBRNE office.
    In closing, there are four fundamental questions that we 
need answered as we consider the Department's proposal: How 
will the proposed reorganization advance CBRNE missions while 
preserving existing relationships? What savings or additional 
costs will be incurred with the proposed reorganization yield? 
What improvements to oversight and management of the activities 
within this new office are expected to be realized? Finally, 
what steps will be taken to contain the negative impacts of 
such a reorganization on employee morale?
    With that, Mr. Chairman, I would like to thank the 
witnesses for being here today, and I yield back the balance of 
my time.
    Mr. Ratcliffe. I thank the gentleman.
    The Chair now recognizes the Chairman of the Subcommittee 
on Emergency Preparedness, Response, and Communications, the 
gentlelady from Arizona, Ms. McSally, for her opening 
statement.
    Ms. McSally. Thank you, Mr. Chairman. I'm pleased our 
subcommittees are meeting today to consider the optimal 
organization of the Department of Homeland Security to meet the 
chemical, biological, radiological, nuclear, and explosive 
threats that face our Nation.
    We know terrorist groups have long strived to employ 
chemical, biological, radiological, and nuclear, or CBRNE 
materials in their attacks. The director of national 
intelligence testified in February that weapons of mass 
destruction continue to be a major threat to the security of 
the United States. He noted that biological and chemical 
materials and technologies, as well as personnel with their 
expertise to use and design them, move easily in the economy. 
The DNI also stated that infectious disease continues to 
threaten our security and that a more crowded and 
interconnected world is increasing the opportunities for human 
and animal diseases to emerge and spread globally.
    Experts suggest the terrorists' interests in utilizing 
chemical agents has also increased. In fact, reports indicate 
ISIS may be currently conducting attacks using chemical agents 
in Syria and Iraq. Last summer, the laptop reportedly retrieved 
from an ISIS hideout in Syria contained plans for weaponizing 
bubonic plague and a document discussing the advantages of 
using biological weapons.
    Earlier this year, the Emergency Preparedness Subcommittee 
held hearings on chemical and biological threats. In addition 
to the severity of the threat, these hearings highlighted a 
number of crosscutting themes. Witnesses testified about the 
need for more robust information sharing among all levels of 
government, and I introduced a bill to address this aimed at 
enhancing CBRNE intelligence and information sharing, which 
recently passed the House.
    We also repeatedly heard about the importance of strong 
coordinated leadership to counter these threats, which brings 
us to the purpose of our hearing today. DHS must play a leading 
role in defending our homeland from these CBRNE threats. In my 
first 6 months in office, I've gained an appreciation of the 
work of the Office of Health Affairs in this particular space. 
As the coordinator for chemical defense at DHS, OHA works with 
Federal, State, and local partners to enhance preparedness and 
response capabilities for an attack or an incident involving 
chemical agents, as we recently saw in a chemical defense pilot 
with the city of Baltimore mass transit system.
    In addition to managing biological surveillance and 
detection systems for the Nation, OHA coordinates the 
Department's efforts related to biological threats, such as 
anthrax or Ebola. OHA also completed an interagency effort to 
develop guidance for emergency response providers to increase 
survivability of victims, as well as safety of responders after 
an attack using an improvised explosive device.
    Despite this good work, the Department's chemical and 
biological efforts have not been without their challenges. 
These are serious threats, and I really look forward to hearing 
from our witnesses today from DHS on how the Department is 
proposing to address them. I'm also interested in hearing from 
both panels how the proposed reorganization will elevate the 
CBRNE mission and provide the strong leadership to ensure the 
Department is able to meet these threats.
    I yield back the balance of my time.
    [The statement of Chairman McSally follows:]
                  Statement of Chairman Martha McSally
                             July 14, 2015
    We know that terrorist groups have long strived to employ chemical, 
biological, radiological, and nuclear, or CBRNE, materials in their 
attacks. The director of national intelligence testified in February 
that weapons of mass destruction continue to be a major threat to the 
security of the United States. He noted that biological and chemical 
materials and technologies, as well as personnel with the expertise to 
use and design them, move easily in the economy. The DNI also stated 
that infectious disease continues to threaten our security and that a 
more crowded and interconnected world is increasing the opportunities 
for human and animal diseases to emerge and spread globally.
    Experts suggest that terrorist interest in utilizing chemical 
agents has increased. In fact, reports indicate that ISIS may currently 
be conducting attacks using chemical agents in Syria and Iraq. Last 
summer, a laptop reportedly retrieved from an ISIS hideout in Syria 
contained plans for weaponizing bubonic plague and a document 
discussing the advantages of using biological weapons.
    Earlier this year, the Emergency Preparedness Subcommittee held 
hearings on chemical and biological threats. In addition to the 
severity of the threat, these hearings highlighted a number of cross-
cutting themes. Witnesses testified about the need for robust 
information sharing among all levels of Government, and I have 
introduced a bill to address this aimed at enhancing CBRNE intelligence 
and information sharing, which recently passed the House. We also 
repeatedly heard about the importance of strong, coordinated leadership 
on these threats.
    Which brings us to the purpose of our hearing today: DHS must play 
a leading role in defending our homeland from CBRNE threats. In my 
first 6 months in office, I've gained an appreciation of the work of 
the Office of Health Affairs (OHA) in this space.
    As the coordinator for chemical defense at DHS, OHA works with 
Federal, State, and local partners to enhance preparedness and response 
capabilities for an attack or incident involving chemical agents, as we 
recently saw in a chemical defense pilot with the city of Baltimore 
mass transit system.
    In addition to managing biological surveillance and detection 
systems for the Nation, OHA coordinates the Department's efforts 
related to biological threats, such as anthrax and Ebola.
    OHA also recently completed an interagency effort to develop 
guidance for emergency response providers to increase survivability of 
victims as well as safety of responders after an attack using an 
improvised explosive device.
    Despite this good work, the Department's chemical and biological 
efforts have not been without their challenges.
    These are serious threats and I look forward to hearing from our 
DHS witnesses on how the Department is addressing them. I am also 
interested to hear from both panels how the proposed reorganization 
will elevate the CBRNE mission and provide strong leadership to ensure 
the Department is able to meet these threats.

    Mr. Ratcliffe. I thank the gentlelady.
    Other Members of the subcommittees are reminded that 
opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 14, 2015
    Good afternoon. I thank the Chairmen and Ranking Members of these 
two subcommittees for holding this important hearing.
    I welcome today's witnesses, and look forward to their detailed 
testimony.
    The Department of Homeland Security has approached this committee 
with a reorganization proposal to establish a central headquarters 
office responsible for assessing and responding to chemical, 
biological, radiological, nuclear, and explosives threats (CBRNE) to 
the Nation.
    The Department's proposal recommends merging the Domestic Nuclear 
Detection Office (DNDO) and the Office of Health Affairs, which is 
currently headed by the Department's chief medical officer.
    The threat from a weapon of mass destruction is complex and the 
potential harm that could affect our citizens is unimaginable.
    First responders need a Federal partner who can help them address 
these threats.
    I believe the Department of Homeland Security can be that Federal 
partner and throughout my tenure on this committee, I have supported 
bipartisan legislation to assist in these efforts.
    However, I still have concerns about the consequences of this 
realignment structure.
    For instance, after Hurricane Katrina, it became apparent that the 
Secretary of Homeland Security needed the counsel of a doctor who would 
be able to provide advice on threats with public health consequences, 
provide necessary medical guidance on workforce health, and serve as a 
resource to components.
    As Congress worked to draft the Post-Katrina Emergency Management 
Performance Act, I worked closely with the Department of Homeland 
Security's first chief medical officer to ensure that the role of the 
Chief Medical Office was appropriately defined.
    In the past, I have expressed concern that the CMO's mission as 
primary medical advisor to the Secretary and her workforce health and 
component support responsibilities have been overshadowed by challenges 
posed by managing BioWatch and the National Biosurveillance Integration 
Center.
    The Department's proposal to move the chief medical officer to the 
new CBRNE office does not relieve my concerns.
    In fact, I am concerned that if moved to a new CBRNE office, the 
chief medical officer may lose her direct line to the Secretary, which 
would be a step backward.
    The chief medical officer's role as the Secretary's doctor is vital 
and must be preserved.
    Additionally, I would note that while the Office of Health Affairs 
struggled with the now defunct BioWatch Gen-3 acquisition, it is 
unclear whether and how this reorganization would address the 
acquisition challenges experiences by not only OHA but also DNDO.
    DNDO also has a history of flawed acquisitions programs that have 
wasted taxpayer dollars.
    For instance, the Advanced Spectroscopic Portals were intended to 
detect illicit nuclear materials and devices that could be shipped in 
cargo entering the United States.
    The Government Accountability Office determined that DNDO 
underestimated the cost of this acquisition, overstated its benefits, 
and provided misleading information to Congress.
    Although I am not rejecting the DHS proposal, it would be 
irresponsible for this committee to act on it in a hasty manner, 
without giving due consideration to why the reorganization is 
happening, how it will affect the missions currently carried by the 
existing offices, whether and the degree to which it will improve DHS's 
CBRNE mission, and how it will affect workforce morale.
    To legislate without careful consideration of these important 
issues could undo a decade's worth of this committee's work in that 
mission space.
    Thank you, and I yield the balance of my time.

    Mr. Ratcliffe. We're pleased to have a very distinguished 
panel before us today on this important topic. Dr. Reginald 
Brothers is the under secretary for science and technology at 
the United States Homeland Security.
    Dr. Brothers, good to see you again. Thank you for being 
here.
    Dr. Kathryn Brinsfield is the assistant secretary and chief 
medical officer with the Office of Health Affairs at the U.S. 
Department of Homeland Security.
    Good to have you, Doctor.
    Dr. Huban Gowadia is the director of the Domestic Nuclear 
Detection Office at the U.S. Department of Homeland Security.
    Welcome back, Dr. Gowadia.
    I'd now ask the witnesses to stand and raise your right 
hand so I can swear you in to testify.
    [Witnesses sworn.]
    Mr. Ratcliffe. You may be seated.
    Let the record reflect that the witnesses all answered in 
the affirmative.
    The witnesses' entire written statements will appear for 
the record. The Chair now recognizes Dr. Brothers for 5 
minutes.

TESTIMONY OF REGINALD BROTHERS, UNDER SECRETARY FOR SCIENCE AND 
        TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Brothers. Chairman Ratcliffe, Chairman McSally, Ranking 
Member Payne, and distinguished Members of the subcommittee, 
thank you for this opportunity to discuss the Department of 
Homeland Security's approach to weapons of mass destruction and 
formation of a potential CBRNE office within the Department. I 
would also like to thank the Members of the subcommittees for 
their longstanding interest in and support of the Department 
and the Science and Technology Directorate and our work to 
combat CBRNE threats.
    On April 22 last year, Secretary Johnson announced the 
Strengthening Departmental Unity of Effort Initiative. Through 
this initiative, the Secretary has directed the Department to 
improve internal processes, increase joint operational planning 
in DHS operations, and better coordinate and align departmental 
capabilities.
    Consistent with the Unity of Effort Initiative, the 
Secretary directed the Department to revisit recommendations 
from 2013 regarding the Department's posture toward chemical, 
biological, radiological, and nuclear threats. The purpose was 
to see if there existed an opportunity for the Department to 
define roles and responsibilities to maximize CBRNE visibility 
and focus.
    The ultimate recommendation to Congress signed by Deputy 
Secretary Mayorkas last month was to form a new CBRNE office in 
DHS headquarters led by an assistant secretary. The proposed 
office would focus specifically on coordinating CBRNE strategy 
and planning within the Department, reborn largely from 
integration of DHS's Office of Health Affairs and Domestic 
Nuclear Detection Office, along with specific elements of the 
Science and Technology Directorate, the National Protection and 
Programs Directorate, Office of Policy, and Office of 
Operations Coordination and Planning.
    The intent of the proposed structure is to form a center of 
gravity for CBRNE functions within DHS headquarters in order to 
drive greater awareness, alignment, and joint action in the 
Department.
    For almost any homeland security challenge in the 
Department, CBRNE or otherwise, the innovative technical 
solutions growing out of research and development will be 
essential to our continued success. R&D has changed a great 
deal over the last several decades. Before, experts in diverse 
fields could work independently from one another and create 
stand-alone products of great value, like a pair of reading 
glasses.
    In the complex world we live in now, filled with advanced 
and rapidly-evolving technology, successful R&D requires a 
convergence of a once-fragmented field and dispersed knowledge. 
For example, a team bringing together electrical engineering, 
human biochemistry, neurosurgery, nano materials, and advanced 
manufacturing can create a hybrid bionic eye that uses a 
digital camera to help blind patients see. In fact, the FDA 
approved the first bionic eye for use in February 2013.
    At S&T, one of the challenges we face is ensuring that our 
operators and end-users have steady access to innovation 
regardless of how the overall landscape transforms. In the 
Department, S&T is one of the few organizations that works with 
multiple operational components and across a full range of DHS 
missions. In support of the CBRNE mission area, for example, we 
work not only with OHA and DNDO, but also with multiple 
operational components in the Department and interagency, 
including the Secret Service, FBI, and State and local 
responders and hazardous material teams.
    The range of expertise at S&T, combined with our reach 
across the Department, provides a unique opportunity to 
contribute to the unity of effort through numerous projects 
across organizational and technical areas.
    To begin with, we have a stable portfolio of R&D projects 
to address long-term enduring focus areas for the Department, 
such as border aviation security. The portfolio also meets 
statutory responsibilities, such as to transition technology to 
State, local, Tribal, and territorial first responders. In this 
capacity, we act as a Federal sponsor and voice in mission 
areas from wildfires to CBRNE events.
    As a complement to our longer-term R&D portfolio, S&T also 
plays an important role in helping the Department address 
immediate needs and pop-up issues. In the last year, we have 
been a go-to asset and source for on-demand science-based 
assessment on a range of urgent homeland security issues the 
Secretary and components have faced. That has included 
contributions to important Unity of Effort activities ranging 
from analytical support to the Department's Joint Requirements 
Council to independent assessments in critical Departmental 
mission areas.
    To fulfill our immediate and long-term obligations to the 
Department, we must have strong relationships across the 
innovation ecosystem. The concept of a homeland security 
industrial base, a greater business community around homeland 
security missions is one we've work hard to advance over the 
last year-and-a-half.
    Wider use of prize challenges, innovation, integration of 
technology accelerators that focus on small business innovation 
research enables us to target small businesses, start-ups, and 
other innovators that before may not have imagined Government 
as a customer for their business.
    I can personally attest to the interest in this community 
in providing public safety and homeland security solutions that 
will make their children and children's children safer, and S&T 
will continue engaging them.
    Our success in all the areas and initiatives I describe 
today is fueled by S&T's ability to maintain a workforce with 
diverse skill sets and expertise that is capable of serving as 
technical experts for the Department, and when needed, quickly 
interfacing with and tapping into the S&T ecosystem.
    On almost any Homeland Security issue that emerges, S&T has 
become a reliable resource for independent, scientifically 
sound technical assistance. We work every day to ensure our 
value to our customers and end-users. We'll bring the same 
enthusiasm to supporting a CBRNE office when and if it becomes 
an entity in the Department.
    Thank you.
    [The joint prepared statement of Mr. Brothers, Dr. 
Brinsfield, and Ms. Gowadia follows:]
 Joint Prepared Statement of Reginald Brothers, Kathryn H. Brinsfield, 
                          and Huban A. Gowadia
                             July 14, 2015
    Chairmen McSally and Ratcliffe, Ranking Members Payne and Richmond; 
and distinguished Members of the Subcommittees on Emergency 
Preparedness, Response, and Communications, and Cybersecurity, 
Infrastructure Protection, and Security Technologies, thank you for 
inviting us to speak with you today. We appreciate the opportunity to 
testify on the Department of Homeland Security's (DHS) work to 
strengthen Departmental Unity of Effort with regard to chemical, 
biological, radiological, nuclear, and explosive (CBRNE) threats to our 
Nation. As the leaders of three of the organizations involved in the 
consolidation of CBRNE functions into one office within DHS, we 
appreciate your interest in this matter. We also appreciate the 
attention Secretary Johnson and Deputy Secretary Mayorkas have given to 
the issue of aligning the CBRNE mission within their vision of a 
streamlined Department, and we have worked closely with them to put 
forward a proposal that enhances coordination and Unity of Effort.
                               background
    The Senate Explanatory Statement accompanying the fiscal year 2013 
DHS Appropriations Act directed that DHS review its chemical, 
biological, radiological, and nuclear (CBRNE) programs and functions. 
The Secretary of DHS at the time, Janet Napolitano, directed the DHS 
Office of Policy (PLCY) to lead a review team in conducting an 
impartial, collaborative assessment of potential alignment options. The 
review team identified realignment criteria and desired outcomes, 
conducted an independent analysis, and consulted with the Domestic 
Nuclear Detection Office (DNDO), Office of Health Affairs (OHA), 
Science and Technology Directorate (S&T), leadership of other DHS 
components and select interagency partners.
    The review team analyzed organizational models ranging from 
informal coordination to mission integration and identified several 
alignment options for DHS leadership to consider, each with its own 
benefits and drawbacks. The then-existing organizational structure was 
deemed by review participants to be insufficiently robust to achieve 
future goals and outcomes in the CBRNE area. The results of the review, 
including the recommendation to establish a consolidated mission 
support organization, were presented to Secretary Napolitano in August 
2013. No decision was implemented at that time due to the limited 
remaining duration of Secretary Napolitano's tenure.
                            unity of effort
    On April 22, 2014, Secretary Johnson directed the ``Strengthening 
Departmental Unity of Effort Initiative'' to improve the planning, 
programming, budgeting, and execution processes and the DHS joint 
operational planning and joint operations through strengthened 
Departmental structures, increased capability, and smart DHS 
headquarters realignment. As part of the initiative, DHS established a 
new DHS Joint Requirements Council and strengthened the existing DHS 
budget and acquisition processes.
    In addition, the Department indicated, in briefings to select DHS 
appropriations and authorizing committee staff, the Secretary's intent 
to realign DHS PLCY and the Office of Operations Coordination and 
Planning (OPS) based on their core functions and consolidate certain 
DHS headquarters external affairs functions. These changes are intended 
to focus headquarters offices on the principal objectives of the Unity 
of Effort initiative, including to integrate the broad and complex DHS 
mission space and empower DHS components to effectively execute their 
operations. The Department's commitment to the Secretary's Unity of 
Effort initiative drove the Department to re-visit the recommendations 
from the 2013 CBRNE review.
                proposed structure of cbrne organization
    The ``DHS Chemical, Biological, Radiological and Nuclear Functions 
Review Report'' was signed by Deputy Secretary Mayorkas on June 17, 
2015, pursuant to the Joint Explanatory Statement accompanying the 
fiscal year 2013 DHS Appropriations. The report is based on the initial 
2013 review, and is further informed by the Secretary's Unity of Effort 
initiative and DHS's recent review of the National Protection and 
Programs Directorate (NPPD). If agreed to by Congress, the recommended 
structure for a CBRNE office is as follows:
    (1) The DHS CBRNE office would be led at the assistant secretary 
        level, as a direct report to the Secretary. The assistant 
        secretary position (A/S CBRNE) would be empowered to coalesce 
        and elevate CBRNE issues to the Secretary in support of the DHS 
        operating components and represent DHS on these matters within 
        the Federal interagency as well as with external stakeholders 
        at the State and local levels and with private-sector partners. 
        The A/S CBRNE would be the Department-wide lead representative 
        at appropriate internal, interagency, and international venues 
        related to DHS CBRNE strategy, policy, planning, programming, 
        budgeting, investment, and joint operational planning and joint 
        operational matters. The DHS CBRNE office shall not conflict 
        with other DHS component legislative mandates to conduct 
        appropriate internal, interagency, and international 
        engagements related to CBRNE.
    (2) The A/S CBRNE would be responsible for coordinating and 
        maintaining Department-wide CBRNE-related strategy, policy, 
        situational awareness, threat and risk assessments, contingency 
        planning, operational requirements, acquisition formulation and 
        oversight, and preparedness across all elements of Presidential 
        Policy Directive 8, ``National Preparedness'' (i.e., 
        prevention, protection, mitigation, response and recovery), 
        consistent with relevant statutory authorities and extant 
        Presidential directives, including but not limited to 
        Presidential Policy Directive 2 and Homeland Security 
        Presidential Directives 10, 18, 21, and 22. This work will 
        complement the capability-building and sustainment efforts 
        managed by the Federal Emergency Management Agency (FEMA).
    (3) The new office would be primarily comprised of the 
        consolidation of DNDO and OHA, including the BioWatch Program. 
        The director of DNDO and the DHS chief medical officer (CMO), 
        as well as other relevant supervisory positions depending on 
        the final organizational construct, would report to the A/S 
        CBRNE on chemical, biological, radiological, nuclear, 
        explosives, and emerging infectious diseases and workforce 
        health issues within their cognizance. Under this 
        reorganization, the director of DNDO and the CMO would have 
        necessary access to the Secretary and deputy secretary as 
        representatives in DHS Senior Leader Forums, when their 
        leadership and technical expertise on CBRNE or other workforce 
        health issues are needed. However, these leaders would no 
        longer be formal direct reports to the Secretary.
    (4) Specialty CBRNE personnel from DHS PLCY and DHS OPS would 
        permanently transfer along with the DHS policy and operations 
        support functions they perform, to the CBRNE office to further 
        strengthen the center of gravity of the new office.
    (5) Chemical, biological, and integrated risk assessment, 
        functional responsibilities from S&T would be permanently 
        transferred to the CBRNE Office.
    (6) NPPD's Office for Bombing Prevention (OBP), which builds 
        capabilities to counter the use of explosives in the homeland, 
        would also be permanently transferred.
    Under the recommended structure, DHS is creating a coherent nexus 
for DHS CBRNE functions within the DHS HQ. The structure will foster 
greater harmony of effort for priority CBRNE issues and greater 
awareness by external and internal organizations regarding the 
appropriate CBRNE DHS focal point for most CBRNE issues. In addition to 
better aligned support programs and activities, the new structure will 
strengthen DHS CBRNE-related operational activities in DHS's operating 
components. FEMA specifically has indicated the establishment of the A/
S CBRNE role will support their efforts to leverage CBRNE analytic and 
technical capabilities to enhance component operations related to 
CBRNE. Additional benefits will likely be realized as the Department 
matures its planning, programming, budgeting and execution system, 
joint operational planning, and joint operations over time.
                          anticipated impacts
    The new Departmental structure will have demonstrable impacts 
across the CBRNE spectrum of activities for prevention, protection, 
mitigation, response, and recovery. This will be accomplished in two 
ways: (1) The inclusion of CBRNE policy and operational support 
personnel within the CBRNE Office, and (2) establishing strong linkages 
between the CBRNE office and the new DHS Joint Requirements and Joint 
Operational Plans processes. DHS OHA, DNDO, S&T, and the Office for 
Bombing Prevention will be realigned in sum or part to ensure the CBRNE 
office has all tools available for a cohesive, competent, and 
functional organization.
    OHA.--The CBRNE office will subsume OHA in total, and will expand 
beyond the historic OHA purview to additionally encompass the broader 
impact of chemical and biological threats. Under the current structure, 
OHA's experts advise and support DHS leadership, its workforce, and 
public and medical health officials Nation-wide to prepare for, respond 
to, and recover from threats to the Nation's health security. This role 
will continue in the CBRNE Office. In addition, the CMO will be able to 
add the capability to leverage existing highly-skilled experts that had 
previously been in other parts of DHS to further the Department's end-
to-end planning for CBRNE threats. Existing health and medical 
expertise will be leveraged to build connections between current and 
emerging health and medical issues and contribute to CBRNE decision 
analysis. Further, OHA's current mission of medical advice and support, 
workforce health protection, support for the first responder community, 
medical quality management, and interagency coordination on health/
medical issues will be further enhanced as the medical expertise will 
be better informed of CBRNE-related policy decisions, planning, and 
programs that may impact the Department's--and Nation's--medical needs.
    DNDO.--The CBRNE office will subsume DNDO in total with all current 
functions remaining intact. DNDO was chartered, in law and Presidential 
directive, using an interagency construct to coordinate efforts across 
the U.S. Government (USG) to detect and protect against radiological 
and nuclear threats. Similarly, the National Technical Nuclear 
Forensics Center was established within DNDO to provide centralized 
stewardship, planning, assessment, exercises, improvement, and 
integration for all Federal technical nuclear forensics activities. The 
U.S. interagency and DHS operational components detail staff to DNDO to 
ensure priorities of their home agencies are accounted for and their 
activities are integrated in all aspects (architecture, risk analysis, 
research and development (R&D), acquisition, training, exercises, etc.) 
to improve coordination across the USG. DNDO conducts a holistic 
program of end-to-end efforts in nuclear detection and nuclear 
forensics, including planning, research and technology development, 
technology acquisition, and support for Federal, State, and local 
operators.
    OBP.--The CBRNE office will subsume OBP in total with all current 
functions remaining intact. OBP accomplishes its mission to protect 
life and critical infrastructure by coordinating counter-improvised 
explosive device efforts, performing capabilities analysis, planning 
and decision support, and providing training and awareness. Moving the 
bombing prevention activities into the office will allow better 
coordination with State and local outreach without disrupting the 
capabilities the Department provides to critical infrastructure owners 
and operators and the private sector across the CBRNE space.
    S&T.--S&T will transfer to the CBRNE office the chemical, 
biological, and integrated risk assessment and material threat 
functions. This will allow appropriate consolidation between risk 
determination and strategy and policy development, enhancing cohesion 
between these functions. The chemical and biological R&D functions 
within S&T and the facilities at which the work is conducted will not 
transfer to the CBRNE Office. However, as the center of gravity for the 
Department on matters related to CBRNE, robust and consistent 
coordination between DHS S&T and the CBRNE office will be required to 
ensure accountability and transparency of R&D efforts in alignment with 
the Secretarial strategic guidance to achieve operational results, a 
principal tenet of Departmental Unity of Effort.
                               conclusion
    The Department's proposed CBRNE reorganization will foster Unity of 
Effort across the Department by integrating and strengthening DHS CBRNE 
coordination, roles, and responsibilities for improving outcomes and 
accomplishing goals. We look forward to working with Congress in 
turning the Department's intent into reality. Thank you for your time 
and interest in this issue. We look forward to answering your 
questions.

    Mr. Ratcliffe. Thank you, Dr. Brothers.
    Dr. Brinsfield, you've got 5 minutes.

TESTIMONY OF KATHRYN H. BRINSFIELD, ASSISTANT SECRETARY, OFFICE 
    OF HEALTH AFFAIRS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. Brinsfield. Thank you, sir.
    Chairmen Ratcliffe and McSally, Ranking Member Payne, and 
distinguished Members of the subcommittee, thank you for your 
attention to this matter. I appreciate the opportunity to speak 
to you alongside my colleagues about CBRNE threats and the 
health needs of our agency and Nation. My remarks today will 
focus on the importance of the DHS focus on CBRNE and health 
threats and how a unified office can support and amplify the 
work we do at the Office of Health Affairs.
    OHA has an important mission space. Led by an assistant 
secretary and chief medical officer, OHA is a headquarters 
office built to fill the need of the Secretary and component 
leadership for expert advice and guidance on biological, 
chemical, and health issues that affect our workforce and 
security.
    Our programs encompass biological detection and 
surveillance, chemical defense, and health and medical-related 
guidance on workforce mission effectiveness and risk 
mitigation. We also provide guidance for State and local 
preparedness and response efforts related to chemical, 
biological, or medical threats. Our staff of doctors, nurses, 
scientists, veterinarians, and first responders have years of 
real-world experience and are uniquely capable of providing 
expert advice to senior decision makers and front-line 
employees.
    There are threats and risks to our Nation related to CBRNE 
and health, and those that wish to do us harm continue to try 
new methods and approaches. Chemical agents can kill, 
incapacitate, cause long-term harm, and contaminate critical 
infrastructure. OHA has received directed funds for chemical 
defense demonstration projects in subways, ports, and large 
venues. When completed, these projects will provide critical 
analysis of emergency response systems, identify community-
relevant solutions, and develop best practices. We appreciate 
Congress' attention on chemical threats and hope to work 
collaboratively in the future with you on this issue.
    A catastrophic biological event, whether natural or 
intentional, could cause thousands or in some cases hundreds of 
thousands of casualties, weaken the economy, and threaten 
National security. Radiological, nuclear, and explosive threats 
are similarly dangerous, and all of these together present a 
risk of both mass destruction and mass disruption.
    Our mission to prepare for weapons of mass destruction is 
critical. Threats that are low probability with high 
consequence require daily preparation and planning.
    Similarly, the mission to prepare for threats of mass 
disruption is critical. Recent events in the United States and 
the world have shown us that these incidents can wreak havoc on 
economies, impact public trust and infrastructure, and cost 
human lives. The near-daily rhythm of these threats strengthens 
our response as we learn by practice and reinforce our working 
relationships.
    Our partners in the Office for Bombing Prevention do 
important and complementing work to that of OHA and DNDO. They 
focus on capability and capacity building for State, local, and 
private-sector stakeholders so they may counter improvised 
explosive devices. They are a small office with a big impact, 
and in partnership with our DOJ counterparts are helping to 
keep us safer.
    The first response to any incident is local. From big 
chemical attacks to major disasters, local communities need 
help to ensure that they have the right systems in place to act 
when a threat occurs. The CBRNE office will create an 
environment that can foster stronger coordination between OHA's 
chemical, biological, and health programs, DNDO's radiologic- 
and nuclear-focused programs, and the Office for Bombing 
Prevention's work. By bringing together our offices into this 
new organization, we'll be able to leverage our existing 
detection capabilities, protocols, and expertise to help 
facilitate coordinated Federal, State, and local detection, 
response, and recovery.
    The chemical, biological, and integrative risk assessment 
and material threat functions currently performed in S&T will 
also be an important element within the CBRNE office. The risk 
assessments inform the work done by our chemical and biological 
programs and are critical to the decisions and priorities made 
by us and our partners at all levels of Government.
    OHA currently addresses all incidents, whether a major 
hurricane or disease outbreak, from an integrative perspective 
using both technical threat-based expertise and health 
knowledge. OHA supports front-line responders as they protect 
communities and helps incorporate health considerations into 
the National response to a threat.
    For example, OHA led DHS's coordinated Ebola response 
efforts and worked closely with Customs and Border Protection 
to set up screening protocols that helped keep our officers and 
traveling public safer.
    OHA manages the DHS medical countermeasure stockpile so it 
is best able to protect our workforce. We have embedded 
physicians in more than half of the operational components 
supporting their work. For example, they teach front-line 
personnel how to mitigate the spread of disease among detainees 
at the border, they train our paramedics on how to provide care 
in remote locations, and they support best practice development 
for the safe monitoring of internal drug smugglers. We look 
forward to taking this integrated capability and further 
applying it to radiological, nuclear, and explosive mission 
spaces.
    I am proud of what OHA and our talented staff have already 
accomplished and look forward to elevating the CBRNE mission, 
continuing health support to our components, and working across 
the enterprise to create efficiency of action. When an agency 
such as FBI or DOD reaches out to DHS, we will be coordinated 
and ready to work with their equivalent offices. When State, 
local, non-Governmental, and private partners reach to us for 
help, we can assist them regardless of the incident or the 
changing nature of the threat they face.
    As our world grows more complex, we need to leverage our 
capabilities and expertise to work together seamlessly. I thank 
you for your time and look forward to answering any questions.
    Mr. Ratcliffe. Thank you, Dr. Brinsfield.
    Dr. Gowadia, you are recognized for 5 minutes.

   TESTIMONY OF HUBAN A. GOWADIA, DIRECTOR, DOMESTIC NUCLEAR 
     DETECTION OFFICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Gowadia. Good afternoon Chairman Ratcliffe, Chairman 
McSally, Ranking Member Payne, and distinguished Members of the 
subcommittee. Thank you for inviting my colleagues and me to 
discuss the proposed reorganization of the Department of 
Homeland Security's CBRNE programs. Through this merger, and in 
concert with the Secretary's Unity of Effort Initiative, the 
Department seeks greater coordination across its CBRNE 
missions, enabling the articulation of its priorities.
    As evident in the 2014 Quadrennial Homeland Security 
Review, nuclear and bioterrorism remain high priorities for the 
Department. I would like to emphasize that the Domestic Nuclear 
Detection Office's structure, mission, and functions will 
continue intact in the new CBRNE office.
    DNDO was established in 2005 as an interagency office and 
has two missions, nuclear forensics and nuclear detection. 
DNDO's holistic end-to-end approach includes developing 
strategies, conducting research and development, and deploying 
its supporting capabilities for our operational partners.
    To maximize the ability to detect and interdict threats, 
and to attribute threat materials to their sources, we are rely 
on a critical triad of intelligence, law enforcement, and 
technology. We work with our Federal, State, and local 
partners, as well as those in the National laboratories, 
industry, and academia to make that triad a reality.
    For technical nuclear forensics, DNDO leads centralized 
planning and integrates interagency efforts. In response to an 
in extremis National capability, we are investing in the next 
generation of U.S. nuclear forensic scientists. In fact, we 
have already exceeded our goal at 35 new Ph.D.s into the 
workforce by 2018.
    For nuclear detection, DNDO coordinates the U.S. 
Government's interagency efforts to develop a global nuclear 
detection architecture and assess its current and planned 
capabilities against evolving threats. To develop breakthrough 
technologies and provide significant operational improvements, 
we conduct transformational research.
    Determined to learn from and never repeat prior missteps, 
DNDO has implemented a disciplined approach to acquisition and 
deployment that involves our end-users at every step of the 
way. Today, we have provided thousands of radiation detectors 
to the Department's operational components so they can perform 
their nuclear detection missions at ports of entry, along our 
land and maritime borders, and in the interior of the United 
States.
    Importantly, all systems under consideration are subjected 
to rigorous testing and evaluation before deployment. Critical 
to mission success is supporting partners with more than 
technology. DNDO works with Federal, State, and local 
stakeholders to build and enhance their detection capabilities 
through pilots, training, exercises, and cross-jurisdictional 
protocols.
    Additionally, our Red Team assists operational agencies in 
evaluating their systems and associated tactics, techniques, 
and procedures. Through these operations, law enforcement and 
public safety officials gain critical experience with uncommon 
nuclear sources leading to improve readiness and performance. 
Hence, DNDO's unique end-to-end approach ensures critical 
functions are integrated and synchronized from gap 
identification to concept development to use in the field.
    This approach has yielded great dividends for the Nation 
and the Department. For instance, through our Securing the 
Cities program, we have established a robust nuclear detection 
capability in the New York City, Jersey City, and Newark 
region. Over time, the region's operational familiarity with 
the mission has grown, and we are now positioned to collaborate 
on the demonstration of an advanced concept whereby radiation 
detection systems will be integrated with other sensors to 
provide an early warning system for nuclear threats.
    Another example is our technical contribution to reduce the 
operational burden to CBP Officers in responding to nuisance 
alarms from benign radioactive sources without the loss of 
sensitivity to threats. Collaborating closely with CBP, we have 
reduced radiation portal monitor nuisance alarms by 
approximately 75 percent on average, thereby facilitating the 
flow of legitimate commerce and freeing up CBP Officers to 
support other National security efforts.
    My teamed, ranked No. 11 overall out of more than 300 
agency subcomponents in the 2014 ``Best Places to Work in the 
Federal Government'' and ranked No. 2 in the innovation 
category, looks forward to the merger, expecting that new 
opportunities will arise as we seek creative synergies with our 
partners across the Department. For instance, we would 
collaborate more closely with the Office of Bombing Prevention 
on the detection of dirty bombs.
    DNDO's comprehensive approach ensures a range of effective 
solutions to meet our Congressionally-mandated responsibilities 
to prevent nuclear terrorism. The very real and evolving threat 
demands an informed, agile, and networked Federal, State, and 
local capability. We will continue to advance the nuclear 
detection and forensics mission as we share best practices 
along with our colleagues addressing other threats.
    A consolidated CBRNE office allows us to build on our 
strengths, combine expertise, and learn from one another. We 
look forward to working with the subcommittees on this effort.
    Thank you very much.
    Mr. Ratcliffe. Thank you, Dr. Gowadia.
    The Chair now welcomes and recognizes the Ranking Member of 
the Subcommittee on Cybersecurity, Infrastructure Protection, 
and Security Technologies, the gentleman from Louisiana, Mr. 
Richmond.
    Mr. Richmond. Thank you, Mr. Chairman. I will just submit 
my opening for the record. I'd ask unanimous consent to do 
that.
    Mr. Ratcliffe. Without objection.
    [The statement of Ranking Member Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                             July 14, 2015
    Good afternoon Mr. Chairman, and Chairwoman McSally, and I want to 
welcome my fellow Ranking Member, Mr. Payne to this joint subcommittee 
hearing.
    I also want to thank our witnesses today, the Department officials 
on our first panel, and the practitioners on the second panel who have 
specialized knowledge of how our nuclear and biological detection 
programs work.
    As the Chairman noted, today's hearing will focus on the 
administration's plans to merge the Domestic Nuclear Detection Office, 
or DNDO, with the Office of Health Affairs, or OHA, to form a ``Weapons 
of Mass Destruction'' office in headquarters.
    This merged office, as proposed, would focus on the challenges we 
face from an array of chemical, biological, nuclear, and explosives 
threats, commonly referred to as CBRNE.
    I applaud Secretary Johnson's pledge to elevate CBRNE focus and 
visibility within DHS. These are serious threats, and our efforts to 
combat them must be equally serious.
    The history of this proposal shows how important careful 
consideration is. Even though the original proposal for the creation of 
DHS in 2002 included a specific office and Under Secretary for 
Chemical, Biological, Radiological, and Nuclear Countermeasures,\1\ 
Congress chose to direct many of those functions to the Under Secretary 
for Science and Technology (S&T).\2\
---------------------------------------------------------------------------
    \1\ Title III of H.R. 5005, as introduced, in the 107th Congress.
    \2\ Pub. L. 107-296, Title III.
---------------------------------------------------------------------------
    And, over the past few years, the Committees on Appropriations have 
instructed the Department to take a ``holistic approach toward 
realignment,'' suggesting that simply merging offices may not fully 
address CBRNE deficiencies, or might create new inefficiencies.
    As we examine the proposal today, I hope we will focus on the heart 
of the issue: How can we best protect the American people from 
chemical, biological, radiological, nuclear, and explosive threats.
    We should not simply approve changes to an organizational flow 
chart and call it a day. We must make sure that those changes are made 
with proper planning and fully thought-out so that we strengthen and 
improve the Department. As GAO puts it, `` . . . the end result of a 
government reorganization should not simply be a collection of 
component units, but the transformation to an integrated, high-
performance organization.''\3\
---------------------------------------------------------------------------
    \3\ Government Accountability Office, Government Efficiency and 
Effectiveness: Opportunities for Improvement and Considerations for 
Restructuring, GAO-12-454T, March 21, 2012.
---------------------------------------------------------------------------
    As we are going to hear today in testimony, the scale of the 
reorganization may itself pose a challenge. The results of both policy 
and operational choices made during this reorganization may affect its 
eventual short- and long-term success.
    The key factors for the Department, and for our subcommittees to 
consider include: Identifying the optimal structure for an office 
focusing on weapons of mass destruction and the mission, scope, and 
appropriate leadership of that new office.
    Additionally, we should keep in mind the message this committee 
delivered in 2010, under then-Chairman Thompson, when it offered a 
combined S&T and DNDO authorization in the belief that there can be 
conflicts of interest between research & development and procurement, 
so those are best left to separate organizations. While not all goals 
of that legislation were achieved, the message was clearly delivered.
    What I hope we are going to hear today is, ``How can the 
Department's overall mission be better defined''?
    Let me finish with this thought. On the ground, and every day, our 
nuclear deterrence and biodefense effort as a Nation depends on 
motivated and vigilant officers across the globe, supplied with the 
best equipment and intelligence we can give them.
    Officers working at our Nation's ports of entry have an especially 
complex and difficult job. Thousands of decisions are made every day 
all across our borders, ports, and airports, to clear a container or a 
vehicle for transit into the United States. These are vital components 
in the flow of commerce in the world's premier and largest trading 
market, the United States.
    Other cargo requires further inspection, or even denial of entry or 
and interdiction action taken on a vehicle or person. That is the hard, 
cold, repetitive, and everyday reality of our mission to prevent a 
violent nuclear or chemical attack, or biological event or outbreak.
    We are grateful for all of our dedicated men and women in the field 
who protect us from weapons of mass destruction. I yield back.

    Mr. Ratcliffe. Dr. Gowadia, I'm going to start with you--
well, actually, first of all, I'll recognize myself for 5 
minutes.
    Dr. Gowadia, I'm very much a believer in not fixing what 
isn't broken, and based on the testimony that we've already 
heard today, I think everyone here today would agree that we 
don't want to provide a solution that creates a problem, 
particularly with respect to DNDO and the good work that's 
being done there. So now that I've got you under oath, I'd like 
to ask you the impact that you think this proposed 
reorganization and the effect that it would have on DNDO, and 
would it affect the current high operations and morale that 
you're enjoying right now?
    Ms. Gowadia. Thank you, Chairman.
    I have strongly supported and continue to believe very much 
in the Secretary's Unity of Effort Initiative. In fact, I would 
posit that DNDO is the very instantiation of that Unity of 
Effort concept. To that end, I think bringing DNDO over to the 
new office intact also adheres to one of the principles for the 
reorganization on preserving a program that is working.
    With our singular focus--and I am truly blessed to work 
with an incredible team who gets their reward in serving the 
front-line operator--we will not be interrupting their ability 
to do that based on the concept we have for the new 
organization, and so I think we will be able to manage their 
morale. That will also be up to us in leadership to make sure 
that we allow them to do that which they do best and enjoy the 
most while we take care of the reorganization at our end.
    Mr. Ratcliffe. So in follow-up to that, Dr. Gowadia, I 
assume that having research and development within your office, 
you see that as a critical function when you talk about keeping 
things intact?
    Ms. Gowadia. Yes. Yes, Chairman, we do. The end-to-end 
focus is important for a technically challenging mission like 
radiation and nuclear detection. Every piece along the way 
needs strong technical input. In this day of hard fiscal times, 
we can little afford the redundancy of recreating technical 
expertise in multiple parts of the Department.
    Mr. Ratcliffe. Thank you.
    So following up on that, I want to ask both Dr. Brothers 
and Dr. Brinsfield about that very issue. It was a concern that 
was also voiced by Ranking Member Payne in his opening.
    Because, as you both know, when DNDO was created, in order 
to focus the organization and give the director all of those 
end-to-end tools needed, radiological and nuclear research and 
development was moved from S&T to DNDO. In fact DNDO is 
statutorily authorized to conduct that R&D.
    But in this proposed reorganization, the chemical, 
biological, and explosives office, the R&D functions there were 
not moved from S&T. So I would like your perspectives on that.
    I'll start with you, Dr. Brothers.
    Mr. Brothers. Absolutely. Thanks for the question.
    So I think there are different models and that's come up in 
some of the opening testimony. I think both models can coexist 
and both models have shown themselves to be effective. Both 
models being the end-to-end model that Dr. Gowadia has and the 
interdisciplinary model that S&T has right now.
    I think if you look historically, a number of years ago, 
science and technology, research and development was really 
based on disciplines being in different silos, physical science 
in one silo, life science in another silo, engineering in 
another silo.
    What you're finding right now in both industry and academia 
laboratories throughout, what you find is the focus now on 
interdisciplinary research. In fact, you find a convergence, 
actually, of the life sciences, physical sciences, and 
engineering. Why is this? It's really because when you get 
people of different types of backgrounds together, they might 
make insights that wouldn't have been previously possible.
    But, again, we can talk about different types of models. So 
in S&T, because we have such a wide range of stakeholders, from 
Transportation Security Administration, Customs and Border 
Protection, Secret Service, et cetera, we go across the gamut, 
it's important that we're able to cross-fertilize our 
innovative ideas with disciplines from across the entire range 
of disciplines that we have.
    So from a perspective of an organization that can look 
across a broad area, it's fundamental, it's essential that we 
have interdisciplinary type of staff. However, that said, for a 
very specialized area, and particularly when we start 
considering trying to minimize disruption, other models can 
work as well.
    Mr. Ratcliffe. Thank you, Dr. Brothers.
    Dr. Brinsfield, I want to give you an opportunity to 
respond on that as well, about not having the R&D functions for 
chem and bio in the new office and the effect that that might 
have.
    Dr. Brinsfield. Thank you, sir.
    We have been of an opinion since the beginning of these 
discussions that there are many correct ways to do this, and 
that we see our role in the chem and bio space as setting the 
requirements and working with the interagency, State, and local 
partners to set those requirements and let the R&D be done in a 
component such as S&T.
    Mr. Ratcliffe. My time has expired. I'd now like to 
recognize the gentleman from Louisiana for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman. I'm going to yield 
my time to the gentleman from--my co-Ranking Member on another 
subcommittee and the gentleman from New Jersey, Mr. Payne.
    Mr. Payne. I would like to thank the gentleman from 
Louisiana for yielding.
    I would like to start off, Dr. Brinsfield, I understand 
that DHS plans to expand the scope of its biodefense 
capabilities. Later this summer, the post-9/11 Commission Blue 
Ribbon Study Panel on Biodefense will release a report finding, 
among other things, there is a lack of National leadership in 
biodefense.
    Do you envision this reorganization as a means to bolster 
DHS's role as a National leader in biodefense?
    Dr. Brinsfield. Certainly we hope that this reorganization 
will elevate the mission space of CBRNE in whole, and with that 
we need to make sure that we are doing our requirements in the 
bio space. As you look through the QHSR report, you'll see that 
we've spent a great deal of time working with our partners in 
DHS and other parts of the interagency to define DHS' role and 
to make sure that we adequately and completely fulfill that 
role in support of the work that goes on in the inter-
Government space.
    So, yes, sir, we hope to continue to advance and promote 
that work.
    Mr. Payne. Past history in some of these areas that we've 
discussed, the ability or the lack of the ability for some of 
these different departments to work together, but what I'm 
hearing now, there's a new spirit of cooperation that is 
permeating the work that's being done in some of your 
departments.
    In my opening statement I observed that proposed 
reorganization is not a complete realignment of CBRNE 
activities at DHS. There are CBRNE functions from across the 
Department, from FEMA to NPPD, that are not included in the 
realignment.
    How did the Department decide to include certain activities 
but not others in the reorganization proposal?
    Dr. Brinsfield. I think the decision was made after careful 
consultation across the different groups within DHS that the 
new organization should be a mission support office. To that 
end, it will be our job to enable the operational components to 
succeed at their mission spaces.
    We view ourselves as subject-matter experts who can help 
components such as FEMA, CBP, the chemical program, and NPPD 
continue to do their jobs and do them well. In fact, we have 
provided subject-matter experts doing real-world events to help 
support those programs.
    Mr. Payne. There's always a concern when you have these 
realignments what the outcome is going to be and how it impacts 
the morale of people that have been at the Department for 
years, that have worked diligently on their projects, and then 
to have it kind-of reorganized and lost in the shuffle does not 
tend to lead to great morale.
    I have some questions about the practical implications of 
the proposed CBRNE reorganization. I understand that the 
Department does not anticipate any cost savings, but I am 
wondering if there might be some new costs incurred. For 
example, would the over 200 employees of the new CBRNE defense 
office be collocated? If so, where? What effect would this have 
on the existing leases?
    Dr. Brinsfield. So, sir, we believe that as we continue to 
elevate this mission space and define this mission space 
clearly and settle this question, our experts that work in 
these areas will be able to continue to function, do their job, 
and we're looking forward to being able to support them doing 
that. We also note that no programs have been cut from this. As 
a matter of fact, one of the things that we feel most 
comfortable about is that the offices are moving in toto, and 
as Dr. Gowadia has stated, we'll be able completely combine all 
that work.
    Dr. Gowadia and I operate our offices within a very short 
distance apart. In fact, our buildings are very close together. 
We have no plans for the future on movement until our current 
leases are up.
    Mr. Payne. Okay. Thank you for that.
    Mr. Chairman, I'll yield back.
    Mr. Ratcliffe. The gentleman yields back.
    The Chair now recognizes the gentlelady from Arizona, 
Colonel McSally, for 5 minutes.
    Ms. McSally. Thank you, Mr. Chair.
    Dr. Brinsfield, as you know, the Emergency Preparedness 
Subcommittee held a hearing earlier this year on chemical 
threats. Dr. Kirk testified. The Chemical Defense Program 
accounts for only $800,000 of OHA's $125 million budget. So 
will the reorganization bolster chemical defense activities? Do 
you think the Secretary intends to then have resources more 
equitably allocated towards chemical defense as the 
reorganization happens? Or how do you see that moving?
    Dr. Brinsfield. So, certainly we share your concern and the 
knowledge that the chemical threat has become more prominent, 
and we watch that closely. We also note and thank you for all 
the additional funding that Congress has provided to the 
chemical program.
    We think that it's very important to make these kind of 
decisions on a risk basis, and so we look forward to working 
with our colleagues across the area so that we can do our best 
job to use the funding that we're provided.
    Ms. McSally. Great. Thanks.
    For Dr. Brinsfield and Dr. Gowadia. So a common theme in 
our subcommittee's hearings earlier this year on both chemical 
and biological terrorism was a need for robust information 
sharing. This is always a challenge both horizontally and 
vertically, as you know.
    I recently visited our Arizona's counterterrorism fusion 
center and to learn more about the vital work that they are 
doing there to support, obviously, any counterterrorism 
activities in the State of Arizona.
    Can you share your perspective on how you think this new 
office will coordinate with the Department's Office of 
Intelligence and Analysis and others in the intelligence 
community to ensure that the threat information is shared with 
fusion centers, emergency responders, other relevant State and 
local stakeholders? This is a challenge whether you're 
reorganizing or not, as you know. But how do you see it getting 
better with the reorganization?
    Ms. Gowadia. Thank you, ma'am, for that question.
    As I mentioned in my opening statement, we rely 
significantly on that fusion of intelligence, law enforcement, 
and technology. So our ties to the intelligence community are 
strong and must continue. We have close and collaborating ties 
not just with the intelligence and analysis function, but 
across the board. In fact, we exchange detailees back and 
forth. We have Coast Guard intelligence officers at DNDO, and 
we have placed some detailees out into the intelligence 
community as well.
    Working through I&A, we inform our State and local partners 
through the fusion center, as well as through publications, 
weekly and monthly publications on the state of affairs, lost 
and stolen sources, and very similarly with the 
counterterrorism community. So I only see it as continuing. I 
do not envision any change thereby.
    Ms. McSally. Okay. Great.
    Dr. Brinsfield. We consider it an important part of our 
mission space as well. As you know, we staff various positions 
as details within I&A to both support the State and local 
program office and the CBRNE health space. We hope to continue 
that coordination.
    Ms. McSally. Great. Thanks. I know there has been some 
concerns talked about as far as managing the change and how 
that impacts morale, the management of human capital, keeping 
talent. Having been in the military 26 years, I've been through 
a lot of reorganizations, and I've seen them go well and seen 
them go poorly.
    It seems like some of the best ones are done with the 
collaboration at the beginning of coming up with the better 
organization, if that makes sense, that there's collaboration 
as part of the process instead of a top-down one that you could 
then potentially have people resisting that change.
    It sounds like, just from reading the documents, hearing 
your testimony today, that there's been a lot of collaboration 
to identify what are the best courses of action that will help 
you all do your jobs better, that won't lead to change 
resistance or competition between the specialties.
    So I just want your perspectives on how that, how this has 
come about, because that can have the mission succeed or fail, 
if people are resisting the change. Do you see any challenges 
in managing people and cultures as you're meshing your 
different subparts together?
    Dr. Brinsfield. So I think one of the things that we've 
always strived in our office for is to understand the many 
different and important cultures within DHS and to be able to 
provide coordination and support across those different 
subcultures of the organization. We've been coordinating and 
speaking to our staff about the discussions on-going, getting 
their input and feedback in different leadership meetings, and 
we believe they're engaged and will continue to be engaged as 
this process goes forward.
    Ms. Gowadia. Chairman, I have been at the Department from 
the very start, and I can tell you I have seen mergers and 
stand-ups and all of it all come together. Yes, there are very 
different cultures from legacy organizations as opposed to 
stand-up organizations.
    With Secretary Johnson coming to the Department, I think we 
have struck a good balance, allowing legacy organizations to 
maintain some of their culture while ascribing to a unified 
mission at the Department level. I imagine we will reflect that 
exactly as we move forward with the new CBRNE office.
    Ms. McSally. Okay. Great.
    My time has expired. Thank you.
    Mr. Ratcliffe. I thank the gentlelady.
    The Chair now recognizes the gentlelady from New Jersey, 
Mrs. Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Thank you very much for being here today and sharing your 
information with us. I have a few questions, kind-of all over 
the place, but a couple of times you mentioned those who have 
expertise that made a decision about this reorganization. What 
was the entity, or who are the ``they'' that determine what 
this reorganization would look like?
    Ms. Gowadia. The Department undertook a review led by the 
Office of Policy in response to Congress' direction for us to 
take a look at this potential reorganization.
    Mrs. Watson Coleman. Is that Mr. Mayorkas?
    Ms. Gowadia. No ma'am.
    Mrs. Watson Coleman. Who is that?
    Ms. Gowadia. Back then it was under Assistant Secretary 
Heyman. But ultimately the decision was made by a deputy 
secretary and Secretary.
    Mrs. Watson Coleman. Okay. I'm a member of--actually, I'm 
the Ranking Member of the Subcommittee on Oversight and 
Management Efficiency, and we've heard a lot about the struggle 
that we've had in certain of the components with regard to 
acquisition management. So what protections will be in place in 
this new organizational configuration that will ensure that we 
have improved acquisition management and accountability?
    Dr. Brinsfield. So, ma'am, I think as we look forward to 
working with the Department on the Joint Requirements Council, 
having decisions made in a coordinated fashion across the 
Department, that will help to inform the process. Also, Dr. 
Gowadia and I both intend to do responsible acquisition, and in 
fact, we are looking forward to working closely with Dr. 
Gowadia's staff, who have developed a certain amount of 
expertise in the acquisition area.
    Mrs. Watson Coleman. A quick question. Dr. Gowadia referred 
to her staff, as her place of work, as the 11th best place to 
work and the second-best something.
    Ms. Gowadia. Second-best in innovation, ma'am.
    Mrs. Watson Coleman. Thank you. So you all neglected to 
mention your ranking. Do you know what your ranking is with 
regard to whether or not it's one of the best or one of the 
least in terms of morale of that nature places to work?
    Dr. Brinsfield. Ours is embedded somewhere within 
headquarters and it is somewhere around the middle of the area.
    Mrs. Watson Coleman. Dr. Brothers.
    Mr. Brothers. We know. We were rated 314, so we were on 
the--we're near the bottom, yes.
    Mrs. Watson Coleman. Okay. Are there any additional costs 
associated with this reorganization? Will there be a request 
for additional funds? If so, how much?
    Ms. Gowadia. We do not envision that at this time, ma'am.
    Mrs. Watson Coleman. Alrighty. Thank you.
    Thank you. I yield back.
    Mr. Ratcliffe. I thank the gentlelady, and recognize the 
newest Member of the Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies, gentleman 
from New York, Mr. Donovan, for 5 minutes.
    Mr. Donovan. Thank you, Mr. Chairman. I hope no one 
recognizes my newness to the committee by my question.
    I'd like to thank you all, Dr. Brothers, Dr. Brinsfield, 
for coming.
    Dr. Gowadia, thank you so much for coming to my office and 
briefing me.
    As you know, I represent the 11th Congressional District of 
New York, which encompasses New York City, and we face a 
persistent terrorist threat in our city. In fact, Commissioner 
Bratton of the New York City Police Department stated that he 
believes that this time period is one of the most significantly 
dangerous periods since September 11, 2001.
    The Domestic Nuclear Detection Office has worked closely 
with New York City in improving the ability for local law 
enforcement and public safety agencies to detect the 
transmission of nuclear and radiological materials through the 
Securing the Cities program. This program is viewed as one of 
the most successful and it allowed New York to dramatically 
improve its capabilities to secure existing radiological 
materials and increase its detection capabilities.
    My question, because I know, Chairman, we might be called 
for votes any time now, I just have one question. With that in 
mind, how is the new office going to impact Securing the Cities 
program, and do you anticipate any changes or disruptions in 
that program?
    Ms. Gowadia. No, sir. Insofar as we are moving to the new 
office intact, we will continue our support for the Securing 
the Cities program, which has yielded tremendous results, as 
you know, not just in the New York City, Jersey City, and 
Newark region, but also in Los Angeles, right here in the 
National capital region, and very soon we will select our 
fourth implementation.
    Mr. Donovan. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ratcliffe. I thank the gentleman.
    The Chair now recognizes my friend and colleague from Rhode 
Island, Congressman Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today and your 
testimony.
    One of the criteria that the CBRNE functions review 
measured against was to define clear roles and responsibilities 
for DHS HQ and operational components. However, listening to 
your testimony and reading the report, I'm not sure it's 
completely clear to me. So can you help me to understand what's 
unclear about the current roles and responsibilities and what 
would be different under the restructuring?
    Ms. Gowadia. Sir, under the new office, a lot of the 
authorities, in fact all the authorities off the various 
offices that are moving together would come together in the new 
office. Certainly, we have clear delineation for the work that 
operational components do and the work that we do within the 
headquarters function.
    We envision the new office to be a mission support office. 
So we would get requirements from our operators in rad, nuke 
line and provide them capability. Dr. Brinsfield and her team 
would certainly give requirements to Dr. Brothers so that they 
could develop capabilities in support of the bio and chem 
mission.
    So we do actually have fairly well-defined roles and 
responsibilities, and it should not see a disruption moving 
forward.
    Dr. Brinsfield. It's our hope that it will be a one-stop 
shop, whether it be for an operational component of DHS or for 
State and locals looking for assistance in any of these areas.
    Mr. Langevin. We're confident that we're not going to be 
duplicating efforts? My question in follow-up would be, are 
there other offices in DHS or in other agencies that operate in 
a similar fashion to the proposed CBRNE office?
    Dr. Brinsfield. So there are other offices. We are 
specifically looking at this office encompassing the DHS 
mission and the DHS roles and responsibilities in the CBRNE 
space.
    But I think it's also important to note when we work with 
the first responder communities, it behooves us, as Members of 
the Federal Government, to make sure we are coordinated well 
across the interagency. Therefore one of the things our offices 
strive to do is actually work towards common guidance and 
common information for first responders and State and locals in 
these areas.
    Mr. Langevin. I certainly hope when it moves forward that 
it is comprehensive, inclusive, and not duplicative.
    The DHS Office of Policy serves as a central resource for 
DHS policy development and review. It's responsible for 
developing DHS-wide policies, programs, and planning. In the 
proposed reorganization, CBRNE-related policy positions would 
be transferred from the Office of Policy to the new office.
    So what benefits does DHS expect to achieve from moving 
policy staff out of the Department-wide Policy Office and into 
a more narrowly-focused office?
    Dr. Brinsfield. So I think the Policy staff that are 
currently on detail to OHA right now provide expertise in 
coordinating CBRNE policies across the Department. They have 
provided that expertise. We continue to coordinate well with 
them and make sure that they are well-coordinated with the 
subject-matter experts in both OHA and DNDO, and we hope to 
continue that.
    It is also a critical need for us to make sure that their 
work in the CBRNE policy space continues to coordinate with big 
DHS Policy and that we as leaders in these areas continue to 
work across that.
    Mr. Langevin. How would policy staff in the new CBRNE 
office coordinate and integrate their decisions with those in 
the Department-wide Office of Policy? Also what factors make 
CBRNE policy different from the other topics that remain in the 
Office of Policy? Should policy positions in other topic areas 
also be decentralized throughout the Department?
    Ms. Gowadia. So the policy aspects, we have always worked 
very closely with our partners from Policy, whether they are 
detailed to OHA or resident up at the Office of Policy. We have 
enjoyed very good collaborations with them. They have provided 
for us Department-wide perspectives and allowed us to speak 
with a unified voice in the interagency and policy fora.
    The CBRNE missions have a technical element to them. So 
sometimes it does help to have closer proximity for the policy 
people to the subject-matter experts. That is one advantage of 
having our policy partners sit closer to us.
    Mr. Langevin. All right. Thank you very much.
    I'll yield back, Mr. Chairman.
    Mr. Ratcliffe. I thank the gentleman.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Perry, for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. Thank the panelists for 
taking the time to be here today. I think I'll turn to Dr. 
Brothers for the first question.
    In addition to managing operational detection and 
surveillance programs for CBRNE threats, the role of DHS 
headquarters is to enable the operational components to achieve 
their missions. Can you tell us how your offices are engaging 
components such as CBP and TSA on these threats currently?
    Mr. Brothers. Yes, I can. In fact, we're developing a 
structure, you may have heard. So under the Secretary's Unity 
of Effort initiative, we've developed a Joint Requirements 
Council, and under this Joint Requirements Council, we have a 
membership of cross principals of all the components that 
discuss issues around acquisitional requirements, et cetera. As 
part of that council, S&T plays a fundamental role in terms of 
looking at and evaluating technical issues, system engineering 
as well.
    So I think with the Joint Requirements Council that that's 
a big picture on how we're developing requirements across the 
organization, but we're also about to set up IPTs, which are 
teams that are made up of the different components for us to 
get down go into what kind of research and development should 
be done across the Department.
    So under the Secretary's Unity of Effort initiative, we are 
really pulling the Department together to, we want one 
organization to develop requirements and acquisition policies 
going forward.
    Mr. Perry. So from an operational standpoint for a layman 
or somebody that's, you know, not working there every day, can 
you kind-of describe--I understand the Joint Requirements 
Council and the IPTs, but operationally, like, what happens on 
a regular basis? How often do you get together once you 
determine actions and potential threats, and then who exactly 
is in charge?
    Who do you report to, how often, and then how do you 
adjudicate the actions in the past through an after-action 
review process and then make modifications, if you know any of 
the answers? That was a few questions at one time, but----
    Mr. Brothers. It's a few questions--right. I think from my 
perspective, the research and development perspective, our 
interaction with the operational components really is through 
the Joint Requirements Council, and we then are setting up 
structures where we actually interact on a daily basis with 
those operational components. That's a work in progress.
    Mr. Perry. But it's just from a research----
    Mr. Brothers. From my perspective------
    Mr. Perry [continuing]. From your perspective.
    Mr. Brothers. It's a research and development exercise, 
that's right. Now, S&T is also involved in the--we're getting 
more involved in the acquisition process in order to make sure 
the Department has a system engineering look at acquisitions 
going forward. So we're moving in there as well. I think 
perhaps Dr. Gowadia----
    Mr. Perry. Yeah, can you, if you can, and if you can answer 
those questions from a kind of a tactical standpoint, you know, 
event management.
    How does it work? How does the current system work? Because 
I think the purpose--one of the purposes for the hearing is it 
seems like it's--there's no point--there's no point to the 
spear. It's--there are many points to the spear, but who's 
coordinating the effort? How does that occur?
    Ms. Gowadia. All right. So I can speak to what we have done 
on the Rad and Nuke threat. First and foremost, we are an 
interagency office and we exchange detailees. So the operators 
sit with us and help shape our plans, help shape everything we 
do. Help even in the design of systems. We leave detail people 
out into the field so that scientists, technical personnel can 
get out and appreciate the operational world. It establishes a 
healthy tech pull, tech push.
    In concert with Dr. Brother's office, we certainly try to 
build systems that are as multifunctional as possible, but we 
involve our end-users from start to finish. So whether it's 
analyzing the risk, understanding the threat, receiving their 
operational requirements, turning it into strategies testing 
the equipment out into the real world, once we buy and deploy 
these systems for them, we support them with alarm adjudication 
help if they need, training and exercises, et cetera.
    So this whole loop does play through over and over again, 
and I can promise you I don't make a single investment decision 
without my operational components sitting right there at the 
table with the catcher's mitt ready to catch what we are 
building for them.
    Mr. Perry. But from a time frame, how often do you 
reevaluate your process?
    Ms. Gowadia. Annually, sir. We annually re-elicit the 
intelligence community. It forms a basis of our terrorism risk 
assessment. From that we are able to analyze what the blue team 
has, what the red team capabilities are likely to be, what our 
gaps and vulnerabilities are, and what our portfolio mix needs 
to be.
    Much of our investment is based on this risk assessment. It 
is also coupled with technology maturity, what the operators 
really want and need, and how they will choose to use the 
systems in the field. So annually we sit down to go through our 
portfolio and every acquisition decision milestone we follow a 
very deliberate process that's reflective of the departments 
and the management directive 102-01 every milestone along the 
way. They sit with us as necessary, test with us constantly, 
sit with us to develop the strategies. So it's pretty much 
constant.
    Mr. Perry. Thank you. Mr. Chairman, I yield back.
    Mr. Ratcliffe. Thank the gentleman. The Chair now 
recognizes the Ranking Member, gentleman from Louisiana, Mr. 
Richmond.
    Mr. Richmond. In an effort to finish before we have votes, 
and to keep you all for waiting for us to vote and come back, I 
will really just make a statement and hope that it's something 
we can all agree on.
    To an answer to an earlier question, you mentioned that 
there really--this was a top-level decision and that the top-
level people came together, and, you know, I just want to make 
sure this is not something that is a great idea in theory but 
in reality, for the people who have to implement it, it's not 
so manageable. So in recognizing that on the ground every day 
our nuclear deterrence and biodefense effort as a Nation 
depends on motivated and vigilant officers across the globe 
supplied with the best equipment and intelligence we can give 
them.
    Officers working at our Nation's ports of entry have an 
especially complex and difficult job. Thousands of decisions 
are made every day all across our borders, ports, and airports 
to clear a container or a vehicle for transit into the United 
States. These are vital components in the flow of commerce in 
the world's premiere and largest trading market, the United 
States.
    Other cargo requires further inspection or even denial of 
entry or interdiction action taken on a vehicle or person. That 
is the hard, cold, repetitive, and every-day reality of our 
mission to prevent a violent nuclear or chemical attack or a 
biological event or outbreak.
    So I want to make it clear that we are very grateful to all 
of our dedicated men and women in the field who protect us from 
weapons of mass destruction on a daily basis and to make sure 
that they are involved in this process, to make sure that it's 
not just in theory that it's a great idea, but all the way to 
the bottom where our officers serve that they're also included 
and they make sure that they can do their goal and their tasks.
    So with that, thank you all for coming, and, Mr. Chairman, 
I will yield back.
    Mr. Ratcliffe. Thank the gentleman. I thank all of you for 
being here for giving your testimony today. It's greatly 
appreciated. You all as a panel are dismissed.
    The committee is going to recess for votes, and we'll 
reconvene immediately after the votes with apologies to the 
second panel for the inconvenience, but with appreciation for 
your indulgence. So we will recess to be back here in about 30 
minutes. Thank you.
    [Recess.]
    Mr. Ratcliffe. The Subcommittee on Cybersecurity, 
Infrastructure Protection, Security Technologies and 
Subcommittee on Emergency Preparedness, Response, and 
Communications will now reconvene and come to order.
    At this time I would like to welcome our second panel to 
today's hearing. I very much appreciate your participation 
today and I, again, I appreciate your indulgence with the vote 
schedule, and we will have additional Members hopefully coming 
back here, but I've been given the green light to go ahead and 
start receiving your testimony.
    So with that I would like to welcome the panel. With us 
today we have Mr. Alan Cohn, who's a principal at Steptoe & 
Johnson LLP. He is the former assistant secretary for strategy, 
planning, analysis, and risk at the U.S. Department of Homeland 
Security.
    Mr. Ozzie Nelson is a senior associate for Homeland 
Security and Counterterrorism at the Center for Strategic and 
International Studies.
    Mr. Warren Stern is a former director of the Department of 
Homeland Security's Domestic Nuclear Detection Office. Thank 
you all for being here today. Again, at this time I'd ask all 
of you to stand and raise your right hands, and I will swear 
you in.
    [Witnesses sworn.]
    Mr. Ratcliffe. Let the record reflect that the witnesses 
have answered in the affirmative, and the witnesses' full 
written statements will appear in the record.
    The Chair now recognizes Mr. Cohn for 5 minutes.

   STATEMENT OF ALAN D. COHN, COUNSEL, STEPTOE & JOHNSON LLP

    Mr. Cohn. Thank you. Chairman Ratcliffe, Ranking Member 
Richmond, distinguished Members of the subcommittees, thank you 
very much for the opportunity to present testimony today.
    As you noted, you have my written testimony, so I'll just 
shortly summarize that briefly here.
    As you noted, I served at the Department of Homeland 
Security for 9 years. Seven of that as the head of strategy. 
The last year dual-hatted as the Deputy Head of Policy. In that 
time I was privileged to work with several leadership teams, 
including multiple leaders of each of the organizations that 
you saw before.
    I commend these subcommittees for ensuring continued focus 
on the question of the best approach to defending against 
weapons of mass destruction. As has been noted, biological 
threats and hazards and the use of an improvised nuclear device 
and the terrorist's use of explosives against transportation 
targets and mass gatherings remain among the threats, hazards, 
and persistent challenges that pose the most strategically 
significant risks to the Nation.
    Having been at the Department for over 9 years before I 
left, I can say definitively that organizational changes are 
rarely the first solution or the most effective solution to any 
problem. That said, in this case, DHS is faced with the problem 
that its weapons of mass destruction leadership, its expertise, 
and its personnel, and resources are dispersed across numerous 
organizations just in its headquarters, let alone its 
operational components. That dispersal has resulted, as this 
committee has rightfully recognized, in unclear assignment of 
responsibilities and suboptimal engagement with Federal 
interagency partners, and with external partners. It has also 
contributed to less-than-effective oversight and execution of 
major acquisitions aimed at combatting weapons of mass 
destruction.
    Three principles should guide any consideration of DHS 
functions--any consolidation of DHS functions and 
organizations. No. 1, there should be a single center of 
gravity within the Department's headquarters for any major 
function.
    No. 2, headquarter's entities should perform the 
integrating functions necessary for the Department as a whole 
to be effective.
    Third, operating entities should carry out operating 
responsibilities. For these reasons, I support the 
reorganization of the Department's headquarter's weapons of 
mass destruction's functions as the Department has proposed, 
but I would highlight two points.
    First, the Department must go beyond placing the Domestic 
Nuclear Detection Office, the Office of Health Affairs, and the 
Office of Bombing Prevention into the same organization. 
Instead, it must fully integrate all of those functions to be 
transferred into the new offices. Each of these offices will 
perform certain functions well, but the Department will benefit 
most by taking the best practices of each and adopting them 
across the CBRNE functions. So for that reason, I believe 
Congress should set the overall responsibilities and 
authorities for the new CBRNE office, but empower the Secretary 
to integrate the functions of the new office in the most 
effective manner possible.
    Second, Congress must ensure that the Department 
effectively assesses its current models for CBRNE research and 
development and determines the best manner in which to pursue 
CBRNE programs and major acquisitions.
    As you heard, DNDO, OHA use different models for their 
programmatic execution and for acquisition. Both of these 
models have achieved successes and both of these models have 
resulted in failure and termination of major acquisitions over 
time. It's difficult to say with certainty which of these 
models or a third model, is best suited to ensuring effective 
mission execution and guarding against the failure of major 
system acquisitions. However, that is an answerable question, 
and Congress and the Department should partner to actively seek 
that answer.
    DHS has been traumatized in its short life-span by a series 
of reorganizations. However, that does not mean that the 
Department cannot benefit from a thoroughly-examined, well-
considered reorganization and consolidation, particularly of 
its headquarters functions. In this case, the time has come for 
Congress and the Department to reorganize and consolidate its 
CBRNE headquarters functions to better effectuate the 
Department's CBRNE responsibilities.
    Thank you again for the opportunity to provide this 
testimony, and I'm happy to answer any questions that you may 
have.
    [The prepared statement of Mr. Cohn follows:]
                   Prepared Statement of Alan D. Cohn
                             July 14, 2015
    Chairs McSally and Ratcliffe, Ranking Members Payne and Richmond, 
distinguished Members, thank you very much for the opportunity to 
present testimony today regarding how the Department of Homeland 
Security can best organize itself to meet the challenge of weapons of 
mass destruction.
    I commend these subcommittees for ensuring continued focus on the 
question of the best approach to defending against weapons of mass 
destruction. As a former first responder and official at the Department 
of Homeland Security, I know the challenges we face as a Nation in 
confronting this threat. While organizational change is rarely the 
first solution to a problem, in this case, the Department is rightfully 
examining the effectiveness of its organization with respect to this 
challenge. The Department's headquarters needs to be consolidated in 
many aspects, ensuring consolidation of similar headquarters functions 
and integration by the headquarters with respect to the Department's 
National responsibilities, while ensuring that the Department's 
operational components and its external operational partners--rather 
than the Department's headquarters--are entrusted with operations. To 
that end, I support the consolidation of DHS's headquarters weapons of 
mass destruction functions into a single office reporting to the 
Secretary of Homeland Security. A fuller explanation of these points 
follows.
    While cyber threats, geopolitical conflicts, and instability and 
terrorism overseas have rightfully captured the interest and 
imagination of the American public and the media at this time, this 
committee has correctly ensured that we remain focused on the range of 
security challenges facing the United States. As stated in the report 
on the 2014 Quadrennial Homeland Security Review, biological threats 
and hazards, the use of an improvised nuclear device, and the terrorist 
use of explosives against transportation targets and mass gatherings 
remain among threats, hazards, and persistent challenges that pose the 
most strategically significant risks to the Nation. In addition, 
chemical weapons and accidents involving chemical facilities and 
chemicals in transit, and radiological dispersal devices or ``RDDs,'' 
are risks that must continually be assessed and addressed.
    I am currently of counsel with Steptoe & Johnson, LLP, the 
principal of my own consulting firm, and a non-resident senior fellow 
with the Brent Scowcroft Center for International Security at the 
Atlantic Council, focusing on issues at the intersection of security, 
technology, innovation, and government. I am proud to have served with 
the dedicated men and women of the Department of Homeland Security in 
the Department's Office of Policy for 9 years, from 2006 to 2015, 7 of 
those as the head of strategy and strategic planning, the last 3 as 
assistant secretary for strategy, planning, analysis & risk, and the 
last year dual-hatted as the deputy head of policy for the Department. 
Before that, I practiced law, was a member of the Fairfax County Urban 
Search & Rescue Task Force and a disaster assistance employee for the 
Federal Emergency Management Agency's urban search and rescue program, 
and served as an emergency medical technician for the 9-1-1 emergency 
ambulance system in New York City. I recognize the deep need for 
Congress and the Department to get its job done efficiently and 
effectively. This is important for the Nation, but also for the first 
responders across the country who rely on the Department for effective 
risk assessment, National strategy and policy, grants and grant 
guidance, scientific information, and protection, detection, and 
response and recovery equipment to supplement their own efforts and 
that of their departments and jurisdictions.
    As noted above, organizational changes are rarely the first 
solution to any problem. However, in this case, the Department of 
Homeland Security does not lack for leadership, expertise, or dedicated 
personnel and resources focused on these challenges. Rather, the 
Department is faced with the problem of dispersing that leadership, 
expertise, and personnel and resources across numerous organizations 
just in its headquarters, let alone its operational components. That 
dispersal has resulted, as this committee has rightfully recognized, in 
unclear assignment of responsibilities and suboptimal engagement with 
Federal interagency partners and external stakeholders on weapons of 
mass destruction issues, and has contributed to less-than-effective 
oversight and execution of major acquisitions involving programs aimed 
at combatting weapons of mass destruction. This is not unique to 
weapons of mass destruction; the Department's headquarters is in need 
of overall consolidation, and an overall sharpening of roles and lines 
of authority.
    For that reason, Congress should be commended for directing, and 
the Department should be commended for conducting, a study of the 
Department's organization with respect to its weapons of mass 
destruction functions, and for making difficult decisions that will 
require organizational transition and consolidation within the 
Department. During my time as an assistant secretary at the Department, 
I led portions of this review process, and helped facilitate 
discussions that resulted in the report that was provided to Congress 
by the Department. However, the views expressed today are my own, and 
are not intended to represent the Department of Homeland Security or 
the organizations with which I am currently associated.
    I believe that there are three principles that should guide any 
organizational changes at the Department of Homeland Security, given 
the Department's structure as a multi-divisional organization, a 
corporate form of organization in which semi-autonomous component 
entities perform interconnected functions and responsibilities, and 
where a headquarters exists to support the organization's senior 
leadership in effectively integrate and optimize cross-Departmental 
activities and decision making in order to best meet the organizations 
overall goals and responsibilities.
    1. Consolidation.--There should be a single center of gravity 
        within the Department's headquarters for any major function, 
        whether in an integrated policy, management, or other 
        directorate, or in a specialized office, recognizing that most 
        if not all of the Department's operating components will likely 
        have a role in carrying out that function.
    2. Integration.--Headquarters entities should perform the 
        integrating functions necessary for a multi-divisional 
        organization to be effective: Conducting risk assessments and 
        associated analysis, leading to the development of integrated 
        strategy and policy, against which research and development, 
        programmatic activity, major acquisitions, joint operational 
        planning, and joint operations can be conducted.
    3. Operations.--Operating entities should carry out operational 
        responsibilities, whether the Department's own operating 
        components or the myriad State, local, territorial, Tribal, 
        private sector, non-governmental, and other partners with 
        operational roles.
    It goes without saying that any entity's organization should be as 
lean as possible, with clearly delineated mission responsibility and 
authority, a clear leadership structure, effective recruiting, 
training, and retention programs, progressive opportunities for 
advancement into either leadership or senior technical positions, and a 
robust interchange of personnel and information between headquarters 
entities, the Department's operating components, and the Department's 
external stakeholders. This testimony assumes those steps will follow 
any reorganization of the Department's weapons of mass destruction 
functions.
    With those elements as the backdrop, I believe that the time has 
come for the Department to undertake a reorganization of its weapons of 
mass destruction activities, with Congress's direction and 
authorization, to best serve its constituents and help safeguard the 
Nation. Specifically:
  <bullet> Congress should authorize the consolidation of the functions 
        currently performed by the Domestic Nuclear Detection Office, 
        the Office of Health Affairs, and certain functions performed 
        by the Science & Technology Directorate, the Office of Policy, 
        the Office of Operations Coordination, and the National 
        Protection and Programs Directorate to create a single office 
        in the Department's headquarters, headed by an assistant 
        secretary and reporting directly to the Secretary of Homeland 
        Security, to best support the Department's responsibilities to 
        combat chemical, biological, radiological, nuclear, and 
        explosive (CBRNE) threats and hazards.
  <bullet> Congress should ensure that this new office is clearly 
        authorized and empowered to perform the range of headquarters 
        functions associated with the Department's CBRNE 
        responsibilities, to include effectively assessing CBRNE risk, 
        formulating and communicating consistent and integrated 
        Departmental CBRNE strategy and policy, ensuring effective 
        oversight and execution of major CBRNE-related programs and 
        acquisitions, communicating effectively with the Department's 
        partners and stakeholders concerning CBRNE risks and the most 
        effective ways to manage those risks, and enabling the 
        Department's operational components to effectively carry out 
        their CBRNE-related responsibilities.
  <bullet> Congress should direct the Department to study, and should 
        also direct an independent study, to determine the best model 
        for integration of CBRNE-related research and development 
        functions conducted by the Science & Technology Directorate 
        with the functions to be performed by the new CBRNE office, and 
        should revisit that issue once those studies have been 
        completed.
    The Department has now proposed many of these steps to Congress, so 
I will elaborate on two points: (1) The integration of CBNRE functions 
within a new CBRNE headquarters office; and (2) the process for 
determining the best model for integration of CBNRE-related research 
and development functions within the Department's headquarters.
    First, the Department must go beyond placing the Domestic Nuclear 
Detection Office, the Office of Health Affairs, and the Office of 
Bombing Prevention into the same organization, and must fully integrate 
the functions to be transferred into the new office. Both the Domestic 
Nuclear Detection Office and the Office of Health Affairs perform 
certain functions well, but both could benefit from taking the best 
practices of each and adopting them across CBRNE functions. Moreover, 
the functions to be transferred from the Office of Policy and the 
Office of Operations Coordination, as well as the Office of Bombing 
Prevention, should be integrated in full into the new organization. 
Congress should set the overall responsibilities and authorities of the 
new CBRNE office, and empower the Secretary to integrate the functions 
to be incorporated into the new office to achieve the best effect 
across CBRNE functions, and not simply place the offices whole into 
what might be nothing more than a new shell organization.
    Second, Congress must ensure that the Department effectively 
assesses its current models for CBRNE research and development, and 
determines the best manner in which to pursue CBRNE programs and major 
acquisitions. Currently, the Domestic Nuclear Detection Office uses a 
``systems command'' approach, similar to Naval Sea Systems Command, 
performing ``end-to-end'' systems development including research and 
development. The Office of Health Affairs uses a model that separates 
research and development from programmatic execution and acquisition, 
with research and development functions performed by the Science & 
Technology Directorate. Both models have achieved successes, and both 
models have resulted in the failure and termination of major 
acquisitions. It is difficult to say with certainty which of these 
models, or a third model, is best suited to ensuring effective mission 
execution and guarding against the failure of major systems 
acquisitions. However, there is an answer to this question, and 
Congress and the Department should actively seek that answer.
    For that reason, Congress should mandate that the Department assess 
the effectiveness of each of these models under the new organizational 
structure, perhaps on a yearly basis, until a specific date in the 
future, say 3 years from the creation of the office. In addition, 
Congress should mandate than an independent study be conducted by an 
organization with familiarity with the different research and 
development models currently in use by the Domestic Nuclear Detection 
Office and the Office of Health Affairs, as well as those of other 
Federal departments and agencies and corporate entities, and make a 
recommendation to Congress and the Secretary as to the best model for 
the new CBRNE organization to employ. Congress can then revisit this 
last CBRNE-related organizational piece once both the Department and an 
independent organization have completed their review.
    DHS has been traumatized in its short lifespan by a series of 
reorganizations. However, this does not mean that the Department cannot 
benefit from thoroughly-examined, well-considered reorganizations and 
consolidations, particularly of its headquarters functions. In this 
case, the time has come for Congress and the Department to reorganize 
and consolidate its CBRNE headquarters functions to better effectuate 
the Department's CBRNE responsibilities.
    Thank you again for the opportunity to provide this testimony.

    Mr. Ratcliffe. Thank you, Mr. Cohn.
    The Chair will now recognize Mr. Nelson for 5 minutes.

STATEMENT OF RICK ``OZZIE'' NELSON, SENIOR ASSOCIATE, HOMELAND 
SECURITY AND COUNTERTERRORISM PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Nelson. Thank you. Good afternoon, Chairman Ratcliffe, 
McSally, Ranking Members Richmond and Payne, and distinguished 
Members of the subcommittee. Thank you for the opportunity to 
testify today.
    As we've noted today, terrorist groups continue to pursue 
CBRNE weapons. For almost 20 years we have seen al-Qaeda and 
its affiliates pursue unconventional weapons. Most recently 
I've seen reports of ISIL seizing chemical weapons facilities 
and radioactive material in Iraq. Domestic efforts designed to 
detect and respond to a CBRNE incident are a critical component 
of our Nation's security, representing the last and perhaps the 
most vital line of defense against these weapons. No department 
has a greater role in this effort than the Department of 
Homeland Security.
    While the Department has succeeded in building a number of 
offices, programs, and capabilities designed to detect and 
respond to CBRNE events, its effectiveness continues to be 
hampered by a variety of challenges. Primarily its fragmented 
organization and approach through which the Department executes 
its efforts.
    Responsibility for CBRNE within the Department is spread 
across no fewer than six separate offices. This fragmented 
architecture demands unachievable levels of coordination and 
makes the implementation of common Department-wide policies and 
activities unnecessarily difficult.
    Most U.S. Government departments and agencies, with the 
exception of DHS, have a streamlined approach to CBRNE with a 
central office that oversees WMD policy and programs. Not only 
does DHS continue to be the outlier with this fractured 
approach, but it has also resisted efforts to address this 
issue. The benefits of the Department for maintaining its 
current structure seem elusive. DNDO was created in 2005 as a 
stand-alone entity to focus Government efforts on the nuclear 
threat. While the office has succeeded in remaining focused, it 
has struggled to develop a strategic guidance and to manage 
large acquisition programs.
    Recently DNDO has seen significant improvements efforts 
such as the Securing the Cities initiatives have flourished, 
and the organization's morale is the highest in the Department. 
However, issues still remain, many of which are beyond the 
control of the director. For example, the director of the 
science and technology maintains its own portfolio of nuclear 
radiological R&D programs which should fall under the purview 
of DNDO.
    The other primary CBRNE entity within DHS is the Office of 
Health Affairs probably has suffered the most from DHS's 
fragmented approach. The Department's chemical and biological 
defense programs are tucked in the office whose primary 
responsibility is health and medical expertise. The 
relationship between chemical and biological threats in public 
health is clear, but they are by no means the same. This 
arrangement fails to recognize the nature of the treat and the 
organizational efforts required to address it.
    The office's flagship program, BioWatch has been shrouded 
in controversy since its inception. In total, the Department 
has spent over $1 billion on BioWatch, and it at best has 
provided questionable results. The Department's chemical 
defense efforts are similarly lackluster. They are severely 
fragmented and generally ineffective at least in part because 
the issues worked in various small offices spread throughout 
the Department.
    While OHA retains the overarching responsibility, these 
other offices own key aspects of the chemical defense 
portfolio, making OHA's charter seemingly unmanageable. The 
Department and Congress must act now to address these 
shortcomings by unifying and elevating DHS CBRNE capabilities 
into one departmental entity. Specifically, DNDO and OHA should 
be merged along with the Department's CBRNE policy and 
operations capabilities. This new office should be headed by an 
assistant secretary who reports directly to the Secretary of 
Homeland Security.
    The decentralized nature of CBRNE efforts within DHS has 
lead to an equally decentralized system to develop associated 
technologies, which has contributed to many of the deficiencies 
in CBRNE and R&D and acquisition programs. As such, CBRNE, R&D 
efforts within DHS also should be unified under the centralized 
office. With responsibility for the Department's entire range 
of CBRNE efforts, the new entity would have the clear charter 
for establishing the Department's priorities.
    Perhaps most importantly, the assistant secretary would 
solely be accountable for all CBRNE acquisition programs 
allowing for a more streamlined and agile approach that is 
directly connected to both policymakers and operators. It also 
would enhance external coordination issues by providing a 
primary entry point for outside entities seeking to coordinate 
with the Department on CBRNE issues.
    The idea of consolidating DHS WMD efforts has long be 
discussed, and now is the time for action. We as a Nation have 
no excuse for not making this change as it will only improve 
the Department's ability to defend against the threat while 
eliminating redundancies. Through integration there exists an 
opportunity to forge more efficient and effective CBRNE 
enterprise and strengthen our Nation's security against these 
devastating weapons.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Nelson follows:]
              Prepared Statement of Rick ``Ozzie'' Nelson
                             July 14, 2015
    Good afternoon Chairmen McSally and Ratcliff, Ranking Members 
Richmond and Payne, and distinguished Members of the subcommittees. 
Thank you for the opportunity to testify today. I will be discussing 
how the Department of Homeland Security can be better organized to 
defend the United States against chemical, biological, radiological, or 
nuclear (CBRNE) weapons. I am here today under my CSIS affiliation 
however I am also employed by Crossmatch Technologies, an identity 
management company, as well as Georgetown University where I teach 
classes on Homeland Security and Counterterrorism as part of the 
Biohazardous Threat Agents and Emerging Infectious Disease Program 
within the Microbiology and Immunology Department.
                               the threat
    In the midst of a seemingly perpetual terrorism threat and a time 
of constrained fiscal resources, the United States Government faces 
difficult questions regarding how to best prepare for National security 
threats that may be viewed as relatively unlikely or low probability 
yet could have potentially devastating consequences, specifically the 
use CBRNE weapons on American soil. Though they may require 
comparatively more time and skill to build or acquire than conventional 
weapons, the proportional effects of CBRNE weapons are significantly 
greater. The ``Amerithrax'' attacks of 2001, for example, involved only 
a small amount of anthrax yet succeeded in paralyzing portions of the 
U.S. Government. And the consequences of a terrorist group detonating a 
low-yield nuclear weapon in a major U.S. city would change America 
forever. Although the probability of terrorists using simpler means--
such as mass shootings--to strike the United States appears much 
higher, the impact of a successful CBRNE attack demands that the Nation 
prioritize and resource this threat.
    Terrorist groups continue to pursue CBRNE weapons, despite the 
challenges they face developing these capabilities, at least in part 
because they can provide these terrorists with a disproportionate level 
of power, and even prestige, relative to their actual capabilities or 
standing. For almost 20 years, we have seen al-Qaeda and its affiliates 
pursue unconventional weapons. Osama bin Laden in 1998 declared that 
acquiring and using a weapon of mass destruction (WMD)\1\ was his 
Islamic duty. More recently we have seen reports of the Islamic State 
of Iraq and the Levant (ISIL) seizing chemical weapons facilities and 
radioactive material in Iraq. Deterrence strategies have no effect 
against these enemies--If they acquire a WMD then we should expect them 
to use it.
---------------------------------------------------------------------------
    \1\ For the purposes of this testimony CBRNE and WMD are used 
interchangeably.
---------------------------------------------------------------------------
    These types of weapons are game-changers for a terrorist group, and 
we should expect such groups to pursue these capabilities with 
continued vigor. While 30 years ago, state-level WMD programs were far 
and away our primary concern, the rapid spread of technology and 
increasing availability of information on the internet has made the 
development of such weapons simpler for terrorist groups by further 
lowering the barriers to development of CBRNE capabilities. Further, 
instability in nations that possess CBRNE weapons, such as Syria and 
Pakistan, raises the risk of existing stockpiles falling into dangerous 
hands. Faced with these threats, the United States has little choice 
but to work to defend itself against CBRNE weapons.
                             the challenge
    Since 9/11 the United States has developed a robust series of 
measures intended to counter CBRNE weapons at multiple points before 
they reach U.S. shores. Yet these efforts continue to fall short. The 
Bipartisan WMD Terrorism Research Center in its 2011 Bio Response 
Report Card gave the Federal Government failing grades in its 
assessment of the Nation's ability to respond to a large-scale 
bioterrorism event. This report is only one of many that indicates the 
Federal Government writ large has failed to posture itself to 
adequately detect and disrupt CBRNE threats or incidents. And 
ultimately, regardless of Governmental efforts at any level, the 
possibility always will remain that a device or agent could evade 
detection or even be manufactured within the United States itself. As 
such domestic efforts designed to detect and respond to a CBRNE 
incident are a critical component of the Nation's security, 
representing the last and perhaps most vital line of defense against 
these weapons.
    No department has a greater role in this effort than the Department 
of Homeland Security. While the Department has succeeded in building a 
number of individual offices, programs, and capabilities designed to 
detect and respond to CBRNE events, its effectiveness continues to be 
hampered by a variety of challenges. First among these is simple but 
critical--the fragmented organization and approach through which the 
Department executes its CBRNE efforts. Currently responsibility for 
various elements of CBRNE detection and response within the Department 
is spread across no fewer than six separate offices including the 
Domestic Nuclear Detection Office (DNDO), the Office of Health Affairs 
(OHA), the Office of Policy, the Office of Operations Coordination, the 
Science and Technology Directorate, and the National Protection and 
Programs Directorate (NPPD). This fragmented architecture demands 
unachievable levels of coordination and cooperation, and makes the 
implementation of common, Department-wide policy and activities 
unwieldy and difficult. Moreover it runs contrary to the Department's 
program to improve Department-wide unity of effort.
    While organizational dynamics may seem trivial they are critically 
important when countering such complex threats as terrorism and CBRNE. 
The National Commission on Terrorist Attacks Upon the United States--
the 9/11 Commission--presents a scathing critique of U.S. Government 
inter-departmental coordination. More recently the 2008 Commission on 
the Prevention of Weapons of Mass Destruction Proliferation and 
Terrorism, cited inefficient Government organization as a serious 
problem--with dozens of overlapping offices and officials responsible 
for addressing CBRNE issues.
    The challenge of coordinating CBRNE detection and response is 
significant. Not only must Federal agencies coordinate across the 
Government but also with State and local governments, who likely will 
be the first responders in such an event, and with industry and 
academia, who provide valuable research and development (R&D) and other 
technical support. Such coordination requires that department and 
agencies be unified and well-coordinated internally. Without effective 
internal coordination, departments and agencies cannot expect to 
succeed with external coordination.
    Most departments and agencies, with the exception of DHS, have a 
streamlined approach to CBRNE with a central office that oversees WMD 
policy and programs. These entities, among others, include the 
Department of Defense's Assistant Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs, the Department of State's 
Assistant Secretary of State for International Security and 
Nonproliferation, and the Federal Bureau of Investigation's Weapons of 
Mass Destruction Directorate. The unity and strength of these elements 
with their clear assignment of responsibilities and clean lines of 
communication has enabled these organizations to effectively coordinate 
internally within their agencies and external with the interagency.
    Not only does DHS continue to be the outlier with its fractured 
approach to CBRNE but it also, for unknown reasons, has resisted--or 
just simply failed to prioritize--efforts to correct the issue. In the 
fiscal year 2013 Homeland Security Appropriations Act the Secretary of 
Homeland Security was tasked by the Congress to review the Department's 
WMD coordinating mechanisms and provide recommendations by September 1, 
2013. Yet the Department failed to respond to this request until June 
2015--almost 2 years later.
    The benefits to the Department for maintaining its current 
structure seem elusive. DNDO was created in 2005 as a separate, stand-
alone entity to focus Government and DHS efforts on the nuclear threat. 
While the office has succeeded in remaining focused it has struggled to 
develop strategic guidance and direction and to manage large 
acquisition programs. The Global Nuclear Detection Architecture--a 
framework for detecting, analyzing, and reporting on nuclear and other 
radioactive materials--has floundered, and hundreds of millions of 
dollars have been wasted on radiation detection programs that have 
fallen well short of expectations, such as the Advanced Spectroscopic 
Portal (ASP) and the Cargo Advanced Automated Radiography Systems 
(CAARS).
    Recently under the leadership of Director Huban Gowadia DNDO has 
seen significant improvement. Efforts such as the Securing the Cities 
initiative--a program to assist States in establishing capabilities to 
detect radiological and nuclear materials in major cities--have 
flourished, and the organization's morale is the highest in the 
Department.\2\ However, issues still remain, many of which are beyond 
the control of the director. For example the Directorate of Science and 
Technology, with a lackluster record of coordinating effectively within 
the Department, maintains its own portfolio of nuclear and radiological 
R&D programs that arguably should fall under the purview of DNDO. 
Additionally key nuclear/radiological policy and operations elements 
reside within other DHS directorates detached from DNDO. While Dr. 
Gowadia's strong leadership and vision have improved DNDO, the 
organization's efficacy cannot be dependent upon personality or 
leadership alone. It must be strong enough not only to stand on its own 
merit but also to execute its charter both inside and outside of the 
Department.
---------------------------------------------------------------------------
    \2\ http://bestplacestowork.org/BPTW/rankings/overall/sub.
---------------------------------------------------------------------------
    The other primary CBRNE entity within DHS, the Office of Health 
Affairs (OHA), probably has suffered most from DHS's fragmented 
approach. The Department's chemical and biological defense programs are 
tucked into the office whose primary responsibility is ``health and 
medical expertise.'' The relationship between chemical and biological 
threats and public health is clear--but they are by no means the same. 
Having chemical and biological programs as a subset of public health 
fails to recognize the nature of the threat and the organizational 
efforts required to address it, which can be seen in OHA's execution of 
its programs.
    The office's flagship program, BioWatch, which aims to detect the 
presence of high-risk biological agents, has been shrouded in 
controversy since its inception. In 2011 the National Academy of 
Sciences questioned the effectiveness of the currently deployed 
Generation Two (Gen-2) system. Last year the Department cancelled the 
acquisition of the next generation biosurveillance technology (Gen-3), 
which was to replace the fielded Gen-2 systems. The program was moved 
from OHA back to S&T for further development. The Government 
Accountability Office (GAO) identified a number of deficiencies with 
the Department's management of the Gen-3 program noting that the 
Department failed to conduct sound mission needs analysis and to follow 
good acquisition processes. In total, the Department has spent over $1 
billion on BioWatch and has at best provided questionable results. Over 
$150 million was spent on the Gen-3 technology alone before it was 
cancelled.
    The Department's chemical defense efforts are similarly lackluster. 
They are severely fragmented and generally ineffective at least in part 
because the issue is worked in various, small offices spread throughout 
the Department. While OHA retains the overarching responsibility, these 
other offices own key aspects of the chemical defense portfolio. The 
Chemical Facility Anti-Terrorism Standards program, which regulates 
high-risk chemical facilities, is managed by NPPD. And the Chemical 
Security Analysis Center (CSAC), which assesses chemical threats and 
vulnerabilities, is led by the S&T office. With a variety of disparate 
chemical programs spread throughout component agencies, OHA's chemical 
defense charter is seemingly unmanageable.
    DHS' fractured approach to CBRNE has resulted in inefficient 
operations, insufficient accountability, and wasted taxpayer dollars, 
ultimately increasing the risk to the American homeland. Fortunately, 
many of these shortcomings can be addressed simply by reorganizing and 
elevating the Department's CBRNE efforts into single, consolidated 
entity. Such an approach will make it possible for the Department to 
have a focused CBRNE detection and response capability with clear roles 
and responsibilities in order to improve reaction times and 
accountability, and eliminate redundancy and inefficiencies.
                              the solution
    The Department and Congress must act now to address these 
shortcomings by unifying and elevating DHS's CBRNE capabilities into 
one Departmental entity. Specifically DNDO and OHA should be merged 
along with the CBRNE policy and operations capabilities and the NPPD 
Office of Bombing Prevention. The new office should be headed by an 
assistant secretary who reports directly to the Secretary of Homeland 
Security. The Department also should align R&D programs under this new 
office. Given that CBRNE detection and response is inherently a 
technology-intensive venture, there are numerous challenges associated 
developing and acquiring the needed technologies. The decentralized 
nature of CBRNE efforts within DHS has led to an equally decentralized 
system to develop associated technologies, which has contributed to 
many of the deficiencies in DHS CBRNE R&D and acquisition programs. To 
increase both the tactical and strategic integration of the CBRNE 
detection and response, the new consolidated enterprise must focus on 
both policy and technology. As such, CBRNE R&D efforts within DHS also 
should be unified under this centralized office.
    The consolidated office also would be able to provide a holistic 
approach to the Department's WMD programs and eliminate duplication of 
efforts. With responsibility and visibility into the Department's 
entire range of CBRNE efforts from policy to technology to operations 
the merged entity would ensure continuity and effective prioritization 
of this highly complex threat. Moreover the experiences of the 
Department's entire WMD expertise could be leverage on a routine and 
daily basis. The new entity would have the clear charter for 
establishing and articulating the Department's CBRNE priorities and 
strategies to both internal and external audiences. Perhaps most 
importantly the assistant secretary would be solely responsible and 
accountable for all CBRNE acquisition programs allowing for a more 
streamlined and agile approach that is directly connected to both 
policy-makers and operators.
    In addition to raising the profile and priority of CBRNE in the 
Department, and consolidating capabilities and eliminating overlap, the 
new entity would enhance external coordination by providing a primary 
entry point for outside agencies and entities seeking to coordinate on 
CBRNE issues with DHS. In today's security environment there are very 
few single agency threats and there are even fewer single agency 
solutions. This is especially true with CBRNE where coordination 
between Federal, State/local, academia, and the private sector is an 
absolute necessity. Under the current DHS structure it is uncertain as 
to who in the Department has the lead for CBRNE efforts and at what 
moment in the process.
    Interagency or inter-departmental coordination is critical when 
dealing with complex transnational threats such as CBRNE. In 
interagency meetings, including at the National Security Council level, 
each Department normally gets a single seat at the table. Individuals 
that are knowledgeable in a broad range of topics, yet still 
technically conversant, often prove to be the most effective 
participants in these policy discussions. Regarding CBRNE, departments 
must have a cadre of individuals who can speak with one voice on the 
whole of the issues. With DHS's expertise currently stove-piped into 
disparate parts of the organization, they lack a robust group of 
individuals that has the responsibility and authority to speak to the 
whole of their efforts against CBRNE threats.
    The consolidated entity also would serve as the home base for all 
DHS CBRNE personnel allowing them to benefit from each other's 
background and experience not only in technology but also in management 
and acquisition programs. A larger, consolidated cadre of talent also 
would provide DHS CBRNE professionals with greater career opportunities 
and positions for growth. By raising the profile of CBRNE within the 
Department and the interagency, and leveraging the recent leadership 
efforts in DNDO that have resulted in such high morale, DHS CBRNE could 
become one of the most sought-after places to work for WMD 
professionals. Instead of internal components competing against one 
another for prioritization and resources they could be working together 
for mutual and greater benefit.
                               conclusion
    DNDO and OHA have struggled with effectively communicating and 
facilitating a common understanding of the Department's CBRNE efforts 
and have ineffectively managed major CBRNE acquisitions. The idea of 
consolidating DHS WMD efforts has long been discussed, and now is the 
time for action. We as a Nation have no excuse for not making this 
change as it will only improve the Department's ability to defend 
against the WMD threat while eliminating redundancies and 
inefficiencies. The current model is also inconsistent with the 
Department's Unity of Effort initiatives. There is simply no reason to 
maintain the current structure. Ultimately, there is no consolidated, 
single architecture that would perfectly address the multitude of 
challenges associated with CBRNE detection and response. However, the 
various offices, programs, and capabilities currently spread across the 
Department can and should be integrated. Through integration, there 
exists an opportunity to forge a more efficient and effective CBRNE 
detection and response enterprise and strengthen our Nation's security 
against these devastating weapons.

    Mr. Ratcliffe. Thank you, Mr. Nelson.
    The Chair now recognizes Mr. Stern for 5 minutes.

 STATEMENT OF WARREN STERN, FORMER DIRECTOR, DOMESTIC NUCLEAR 
     DETECTION OFFICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Stern. Good afternoon, Chairman Ratcliffe, Chairman 
McSally, Ranking Member Richmond, Ranking Member Payne, and 
distinguished Members of the subcommittee.
    I'm pleased to testify today about the Department of 
Homeland Security plan to establish an office responsible for 
chemical, biological, radiological, nuclear, and explosive 
threats. I am currently the R&D manager at Brookhaven National 
Laboratory. However, I'm not here today as a Brookhaven 
employee. I am here as an individual to provide testimony based 
on my experience in this field.
    From 2010 through 2012, I was the director of DNDO. I have 
also worked in related U.S. Government positions over 25 years, 
and have been part of several Government reorganizations. I 
draw my insights from these experiences.
    In general, I favor the creation of a weapons of mass 
destruction organization within DHS. Weapons of mass 
destruction threats, which are exceedingly infrequent, can be 
easily forgotten in the day-to-day work of Government agencies. 
A strong organization focused on the work necessary to prevent 
and respond to events of low frequency but very high 
consequence is necessary to prevent a terrorist attack using 
weapons of mass destruction in the United States. However, I 
also believe that a reorganization of the scale and scope being 
considered by the subcommittee would be a significant--would be 
significantly disruptive to the work of the those involved. 
This does not mean that a reorganization should not be pursued. 
It simply means that such reorganization should only be pursued 
if the benefits significantly outweigh the costs. If there is a 
clear objective, and if Congress and the administration have 
the willingness and the ability to devote the resources needed 
to ensure the objectives will be met.
    If a reorganization is to be done, it should be done to 
make a substantially stronger organization. Reorganization 
should not be pursued simply to make a cleaner organizational 
chart. While DNDO has had difficult periods in its relationship 
with Congress, I believe that when I left DNDO, Congress was 
generally pleased with and supportive of its work. I also 
believe that under the current leadership this is still true, 
and I've heard that today also.
    As such, as Congress considers any reorganization plan, it 
should consider which specific problems with respect to DNDO it 
is trying to fix, as DNDO will be the largest part of the new 
CBRNE unit. Within the context of these cautions, I'd like to 
highlight three specific points regarding the specific 
reorganization plan presented by the administration.
    The first is at the bureaucratic level. The proposed 
structure would place each of the functional units, nuclear, 
chemical, biological, explosive, below an assistant secretary. 
This would mean that the head of all nuclear functions would no 
longer have a direct link to the Secretary and would become the 
equivalent of a deputy assistant secretary or an office head. 
This structure has the potential to diminish rather than to 
strengthen the role of DNDO.
    For example, when I started at DNDO, one of the main 
Congressional criticisms was that the organization had not been 
able to create a Government-wide strategic plan for the global 
nuclear detection architecture. Within 3 months we were able to 
create such a plan. The plan reflected the hard work, insights, 
dedication, and diplomatic skills of the DNDO's many employees. 
However, it is clear to me that this could not have been done 
if it had not been for my ability to reach out to assistant 
secretaries in other agencies as an equal partner and to have a 
direct line to the Secretary to call upon when there were 
problems.
    My second specific comment relates to the functions of the 
new office. DNDO has a narrowly-defined function, nuclear 
detection and nuclear forensics. This allows the office to do 
what it does well. The DHS plan suggests that the new office 
would address a much broader span of nuclear topics. The 
subcommittee should recognize that this would have a 
fundamental and transformative effect on DNDO.
    My final point relates to this change in scope. The DHS 
plan notes that the expansion in DNDO's mission would be 
accomplished by the inclusion of CBRNE policy and operational 
support personnel within the new CBRNE unit. The shift in 
personnel into the new nuclear organization appears quite 
small, perhaps a few people. It in no way reflects a 
fundamental shift in the scope of the organization. I urge that 
the actual scope of the new office be clear, carefully 
considered, and related to the manpower it needs for each of 
the new areas to be included in DNDO's mandate.
    In conclusion, I would once again like to thank the 
subcommittee for the opportunity to testify today, and to 
emphasize that if a CBRNE organization is going to be created 
in DHS, it should be created in a way that makes its 
constituent parts stronger than they are today. I appreciate 
your consideration of this issue, and am happy to answer any 
questions. Thank you.
    [The prepared statement of Mr. Stern follows:]
                   Prepared Statement of Warren Stern
                             June 14, 2015
    Good afternoon Chairman Ratcliffe, Chairman McSally, Ranking Member 
Richmond, Ranking Member Payne, and distinguished Members of the 
subcommittee. I am pleased to testify today about the Department of 
Homeland Security's plan to establish a central headquarters office 
responsible for chemical, biological, radiological, nuclear, and 
explosives (CBRNE) threats.
    I am currently senior advisor and R&D manager at Brookhaven 
National Laboratory. However, I am not here today as a Brookhaven 
employee or representative of Brookhaven or the Department of Energy. 
Rather, I am here as an individual, to provide testimony based on my 
experience in this field. The views I express today are my own. 
Furthermore, I am not being reimbursed by my employer for the time or 
expense incurred by this testimony.
    From 2010 through 2012, I was the director of DHS's Domestic 
Nuclear Detection Office. This is the office that would comprise the 
largest part of the new CBRNE office being considered by the 
subcommittees. I have worked in other related U.S. Government positions 
over a 25-year career and have been part of several Government 
reorganizations. I draw my insights from these experiences.
    At the outset, I would like to be clear that, in general, I favor 
the creation of a strong WMD organization within DHS. DHS focuses its 
efforts on threats that manifest themselves frequently. WMD threats, 
which are exceedingly infrequent, can easily be forgotten in the day-
to-day work of Government agencies. A strong organization focused on 
the work necessary to prevent and respond to events of very low 
frequency but very high consequence is necessary to prevent a terrorist 
attack using WMD.
    I believe that a reorganization of the scale and scope being 
considered by the subcommittees would be significantly disruptive to 
the work of those involved. This is not unique to DHS. It is simply 
what happens during any large-scale reorganization. There are winners 
and losers; civil servants and others will spend time wondering what 
will happen to them and debating the details of the new structure. A 
reorganization such as this will set the organization back for a time 
as the new structure transitions.
    This does not mean that reorganizations should not be pursued; it 
simply means that such reorganizations should only be pursued if the 
benefits outweigh the costs, if there is a clear objective, and if 
Congress and the administration have the willingness and ability to 
devote the resources needed to ensure the objective will be met.
    DNDO and OHA are two of the smallest components in DHS, and some 
have argued that the two should be consolidated to make a more 
streamlined structure at DHS. In my opinion, the Secretary's office 
does have too many direct reports. However, because of the costs 
involved in reorganization, reorganization should not be pursued simply 
to make a cleaner organization chart.
    Some assert that reorganization should be pursued to reduce costs. 
However, while DNDO and OHA work cooperatively when there is a common 
issue, the missions of DNDO and OHA are very different. Nuclear 
detection and monitoring and response to biological threats are 
distinct disciplines. While there may be small administrative savings 
in combining the two, it is hard for me to imagine that the benefits 
would be significant enough to justify the costs of reorganization. If 
reorganization is going to be done, it should be done well and done for 
the right reason: To make a substantially stronger organization.
    DNDO is a unique interagency organization, as it is focused on two 
main areas of nuclear terrorism prevention: Nuclear detection and 
nuclear forensics. DNDO works with Federal, State, local, Tribal, 
territorial, international, and private-sector partners to fulfill its 
mission. It works in coordination with partners from across the U.S. 
Government (USG), including DHS components, the Departments of Energy 
(DOE), State (DOS), Defense (DOD), Justice (DOJ), the intelligence 
community, and the Nuclear Regulatory Commission.
    DNDO develops the Global Nuclear Detection Architecture (GNDA) and 
implements the domestic component of the architecture. DNDO also works 
with its partners to coordinate interagency efforts to develop 
technical nuclear detection capabilities, measure detector system 
performance, ensure effective response to detection alarms, integrate 
USG nuclear forensics efforts, and conduct transformational research 
and development for advanced detection and forensics technologies. DNDO 
is charged with being the primary Government entity to develop, 
acquire, and support the deployment of an enhanced domestic system to 
detect and report on attempts to import, possess, store, transport, or 
use a nuclear explosive device or unauthorized radiological material in 
the United States.
    While DNDO has had difficult periods in its relationship with 
Congress, primarily surrounding the work related to the Advanced 
Spectroscopic Portal (ASP) and its lack of a strategic plan, I believe 
that when I left DNDO, Congress was generally pleased with and 
supportive of its work. I also believe that, under its current 
leadership, this is still true. As such, as Congress considers any 
reorganization plan, it should consider what specific problem with 
respect to DNDO it is trying to fix, as DNDO will be the largest part 
of the new CBRNE unit.
    Within the context of the above cautions, I would like to highlight 
three specific issues on the reorganization plan presented in the ``DHS 
Chemical, Biological, Radiological and Nuclear Functions Report.''
    The first is the bureaucratic level of the CBRNE office and its 
units. The proposed structure would place each of the functional units 
(nuclear, chemical, biological) below an assistant secretary who would 
be responsible for all of the units and overall CBRNE policy. This 
would mean that the head of all nuclear functions would no longer have 
a direct link to the Secretary and deputy secretary and would become 
the equivalent of a deputy assistant secretary. Presumably, managers 
below the new nuclear head would become the equivalent of office 
directors or team leaders.
    This structure has the potential to diminish rather than strengthen 
the function of DNDO. Interagency relationships are at the heart of 
DNDO's work. Stepping down the level of the director and those below 
her could impact the effectiveness and efficiency of DNDO.
    For example, when I started at DNDO, one of the main Congressional 
criticisms of DNDO was that the organization had not been able to 
create a Government-wide strategic plan for the GNDA, despite a strong 
recommendation from Congress to do so. I agreed with Congress that such 
a plan was necessary and was determined to create such a plan. Creating 
any plan across the five or six relevant Departments with overlapping 
responsibilities is an extremely complex task, and my first step was to 
appeal to my counterparts in the other agencies to personally ask for 
their help in creating this strategic plan. I asked each of my 
counterparts at the assistant secretary to show flexibility and 
consider overriding obstruction by lower-level officials in their 
organizations if necessary. My next step was to explain to the 
Secretary and deputy secretary that I needed their help managing the 
interagency and, more importantly, in managing the larger components 
within DHS.
    Within 3 months, we were able to create the first GNDA strategic 
plan and deliver it to Congress with concurrence and input from the 
White House and all relevant agencies. To be clear, the plan reflected 
the hard work, insights, dedication and diplomatic skills of DNDO's 
many talented employees. However, it is also clear to me that this 
could not have been done if I had not been able to reach directly out 
to my interagency counterparts at the assistant secretary level to 
resolve problems and directly leverage the Secretary's office.
    My second specific comment relates to the function of the new 
office. As I mentioned earlier, DNDO has a narrowly-defined function--
nuclear detection and forensics--and that limitedness has both positive 
and negative elements. On the positive side, it allows the office to do 
what it does well. There are several places in the Government that work 
on nuclear detection, but no other agency or department covers the 
detection field so comprehensively or competently, from R&D and testing 
to acquisition and architecture.
    On the other hand, detection and forensics is only a slice of U.S. 
efforts to prevent a nuclear or radiological terrorism. The DHS plan 
suggests that the new structure offers the opportunity for the nuclear 
office to more robustly address the span of nuclear topics, to include 
prevention, protection, response, mitigation, or recovery. The 
subcommittee should recognize this relatively small part of DHS's plan 
could have a fundamental and transformative effect on the work of DNDO.
    My final point is related to the change in scope. The DHS plan 
notes that the expansion in DNDO's mission would be accomplished in two 
ways: By inclusion of CBRNE policy and operational support personnel 
within the new CBRNE office and by establishing strong linkages between 
the CBRNE office and a new DHS Joint Requirements Joint Operational 
Plans Process. To me, this seems wholly inadequate given the potential 
scope of the new organization. The shift in personnel into the new 
nuclear organization appears quite small, perhaps a few people, and it 
in no way reflects the fundamental shift in scope of the organization.
    Indeed, even with the shift, important elements of the CBRNE 
mission will remain in other parts of DHS. For example, the Federal 
Emergency Management Agency (FEMA) and National Protection and Programs 
Directorate (NPPD) will retain key nuclear missions and personnel that 
appear to be within the new scope of the nuclear part of the new CBRNE 
office. I urge that the actual scope of the new office be clear, 
carefully considered, and related to manpower needs for each of the new 
areas to be included in DNDO's new mandate, which could be substantial.
    In conclusion, I would once again like to thank the subcommittees 
for the opportunity to testify today and to emphasize that if a CBRN 
organization is going to be created in DHS, it should be created in a 
way that makes its constituents--in particular DNDO--stronger than they 
are today. I appreciate your careful consideration of this issue and am 
happy to answer any questions.

    Mr. Ratcliffe. Thank you, Mr. Stern.
    I'd now like to recognize the gentlelady from Arizona, 
Congresswoman McSally for 5 minutes.
    Ms. McSally. Thank you, gentlemen. I really appreciate your 
testimony today and your experience as outsiders but also 
former insiders, in some cases, on what's the best way for us 
to be combatting these threats. I agree with you, I spent 26 
years in the military, I said this to the last panel, I've 
reorganized for reorganizing sake or been a part of those in 
the past. Managing change is something that is, you know, 
sometimes doesn't end up with a better result. So, I mean, I 
appreciate your perspectives on that, Mr. Cohn, and, Mr. Stern, 
especially your comments on that.
    So can we talk a little bit more about that? Just elaborate 
a little bit on your perspectives of how you think this change 
would be managed. I hear you say it needs to happen, and so how 
do you think it would be managed so it is for the good and it 
isn't like a bureaucracy that then resists the change and ends 
up less capable to actually address the issue that we were 
trying to do because bureaucracies have an ability to resist 
change.
    So just wondering about your perspectives, and also, Mr. 
Stern, having been there on if this is, you know, the right 
thing to do, how that should be managed so that we don't have a 
dip. Because sometimes there's a dipping capability as you're 
moving to a new order, and what you think we can learn from 
your insights on how to do it well if it goes into force?
    Mr. Cohn. So I think the most important thing in any 
organization, whether you're leading as it is or reorganizing 
it is a clear sense of mission, strong leadership who are 
empowered to carry out that mission, and a workforce that 
clearly understands what is expected of it in that new 
organization.
    So I think that the most important pieces--and so in this 
way I agree with Warren that the reorganization should not be 
undertaken for reorganization's sakes. But the Department has 
set out some key reasons why the reorganization needs to take 
place. People within the Department and outside the Department 
need to know where they go for this source of expertise, people 
within and outside of the Department, and that may be its 
operating components down to the individual CBP Officers or 
others, as Ranking Member Richmond has mentioned. Whether that 
is State and local officials from Texas or Arizona or Louisiana 
or wherever they are, or from the Federal interagency to be 
able to have one place to go. As was pointed out, that there is 
one official who is accountable for making decisions based on 
risk across these entities.
    So I think that it's imperative in this reorganization, and 
Congress has the opportunity to clearly set the mission, 
clearly set the authorities, and clearly direct the new office 
in a task to carry out the Department's National and overall 
responsibilities in an integrated way.
    Ms. McSally. Mr. Stern, you got any perspective?
    Mr. Stern. Yeah. So I think the most important thing, 
assuming a transition is going to occur, is to ensure that the 
objectives which Mr. Cohn mentioned are linked to the means. 
That it's clear to the individuals involved how this change 
relates to those objectives.
    So, for example, if the objective is to strengthen the 
organization, then presumably there should be an elaboration of 
how this strengthens the organization and how the individuals 
in the existing units fit into that strengthened organization, 
and although the administration or the DHS plan is not very 
detailed, understandably at this point, I think at some point 
before Congress approves of this it should be well explained 
and it should be explained to the staff.
    The other thing that I would suggest in order to ensure 
that it's not too disruptive is to ensure that in DNDO's case 
that it moves as a unit. For example, I think there's been 
discussion of moving the R&D part of DNDO, and that was in play 
when I was director also, and I fought strongly against it. 
DNDO acts as a unit and acts together and is structured that 
way, and the objective would be to minimize that transition in 
the creation of this new organization.
    Ms. McSally. Great. Thanks. I heard you talking about, and 
I totally agree, if people don't know who to call, if there's 
not one place or somebody who's responsible at the right level, 
then that can be confusing both within the Department and the 
interagency and then with us. But having an assistant secretary 
as an answer, we're marking up a bill later this week to create 
potentially another assistant secretary about countering 
violent extremism.
    So how many direct reports--or how many assistant 
secretaries will there be when we're done with this, and is 
there a down side as we try and elevate those many different 
missions that it--you know, that we have too many chiefs and 
not enough Indians, so to speak, you know, just to use that 
example.
    Mr. Cohn. My experience in the Department is that when an 
office like this is created, it's not at the diminution of the 
sub offices that are incorporated, but rather when you have 
heads of individual offices all reporting to the Secretary, it 
diminishes the impact that any one of them has. So in this case 
you are taking two direct reports and pieces of other entities 
and combining them into a single organization with a single 
leader at a level of stature who can then have the level of 
impact directly with the Secretary, the deputy secretary, and 
the Department's leadership that you would want for this 
function.
    Ms. McSally. Great. Thanks. My time's expired. Thanks, Mr. 
Chairman, for yielding to me so I can go to the floor and talk 
about National security. Another important issue.
    Mr. Ratcliffe. I thank the gentlelady for yielding back, 
and the Chair now recognizes the Ranking Member of the 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies, the gentleman from Louisiana, Mr. 
Richmond.
    Mr. Richmond. I guess I'll start with Mr. Stern, because I 
think you touched on it a little bit, and then as Mr. Nelson 
and Mr. Cohn want to chime in, you're more than welcome.
    I'm trying to get a feel for what extent you think the 
proposed consolidation represents a departure from existing 
technologies acquisition review processes for each office or 
component. Let me give you an example. Would you recommend that 
the newly-minted assistant secretary scrutinize current 
activities and re-assess or re-prioritize their relevance or 
need? Second, how would you form a CBRNE office? Feel free to 
take a minute to expand on a your thoughts too.
    Mr. Stern. Yeah, thank you. Following in answering this 
question and following on the last answer, the consolidation 
within DHS and removing direct reports from the Secretary 
doesn't necessarily require the diminution of the directors 
below the assistant secretary level. So now you'll have an 
assistant secretary and/or some perhaps under secretary with 
several independent yet cooperative elements below it.
    It doesn't fundamentally affect the way acquisition is 
done, although it provides the opportunity for joint 
acquisitions between the different components within this new 
CBRNE unit. So it has the potential to improve acquisition 
processes, but that can't be taken as a foregone conclusion.
    Mr. Nelson. To the earlier point as well, we could make it 
an under secretary as well. I think the Department's probably 
short two under secretaries to begin with, and raise them up. 
Again, not all departments are going to be equal either. All 
assistant secretaries wherever we are regarding Government 
aren't weighed.
    But as far as the acquisition, I think having that one 
individual that is responsible for these complex--technically 
complex acquisition programs, having that charter is critically 
important. Right now, as I said in my comments, the acquisition 
in the R&D is so fragmented throughout the Department and 
agency, and with these programs moving through the system and 
exchanging hands, there's really no one to go to and say: Okay. 
Who is ultimately responsible for X, Y, and Z, and who's 
following it through? That's what that under secretary--
assistant secretary is going to give you, the single belly 
button that is oversight inside the Department and oversight to 
you here in Congress.
    Mr. Cohn. I think that this is a departure from the way 
that the Department is currently operating, and that is for the 
better. I think it is an opportunity to combine the best of 
what you heard from each of the three panelists on the first 
panel.
    No reorganization, as Mr. Nelson said, change--or Mr. Stern 
said--changes acquisition oversight or other things 
automatically. It simply sets the conditions for that. But this 
type of integration allows you to take that focus that Dr. 
Gowadia spoke of and expand it across the CBRNE space.
    It allows you to take the risk-oriented approach that Dr. 
Brinsfield noted, invest the assistant secretary with the 
ability to look across this portfolio and make decisions based 
on risk in consultation with and in service to, the Department 
and its external stakeholders. It gives the assistant secretary 
in the office the opportunity to take that integrated view that 
Dr. Brothers said was so important, especially when you're 
dealing with technical subjects.
    Mr. Richmond. As they embark on this creation and, really, 
the goal of getting unity of effort, and you talk about focus, 
what would your advice be in terms of the maybe not so obvious 
but pitfalls that may be in there or unintended consequences 
that you would want to give just a heads-up that they should 
look for? We can start in same order. Fine with me.
    Mr. Nelson. Sorry. I apologize for interrupting. I would 
say, somebody's mentioned it, but this is critical, again, 
having spent 20 years in Government, you have to merge them. It 
can't just be reorganization on a piece of paper. It has to be 
a full integration, and, as Alan pointed out, a very clear 
charter, that there can't have been DNDO inside this 
organization and OHA inside this organization. It has to be a 
blending, a full blending, of the organization. That's probably 
the biggest pitfall.
    Mr. Stern. I would say the biggest pitfall is not 
adequately defining the function of the new organization that 
is--in the administration plan, it suggests that this new 
nuclear unit will be doing a lot more than DNDO currently is 
doing. The nuclear security field is vast, and nuclear 
detection and nuclear forensics, which are narrowly what DNDO 
does, are a small part of that, and they do it well. But if 
that's going to be broadened, then that should be done 
intentionally with the resources devoted to the new areas of 
consideration.
    Mr. Cohn. I think the other point I would add to those 
points, and it's as you pointed out, there are dedicated 
employees across the Department of Homeland Security. Whenever 
there's a reorganization, clear direction should be given and 
the leaders have to lead. Leaders have to lead in the direction 
of the mission as it is set forth because that is what's owed 
to the employees of the Department.
    Mr. Richmond. Thank you, Mr. Chairman, and I yield back. 
Thank you to the witnesses.
    Mr. Ratcliffe. Thank the gentleman. I yield myself as much 
time as I may consume.
    I'd like to start with an issue that we discussed with the 
prior panel. You all were present in the room and were able to 
hear the testimony talking about DNDO functioning well, and one 
of the reasons given for that success was the ability of DNDO 
to achieve end-to-end solutions in part because the research 
and development component was contained therein.
    I asked a question of Dr. Brothers about the reorganization 
and the fact that, as it's proposed, the chem/bio research and 
development would not transfer. His response to that question 
was essentially different models work well. I want to start 
with your perspective on that, whether or not you agree with 
that?
    Mr. Cohn. I'll start with that. I do think that, as I said 
in my testimony, there are different models at play here. They 
have succeeded in some ways. They have failed in others. I 
think actually that both Mr. Stern and Dr. Gowadia underplay 
their own role in the success of DNDO. DNDO has been very well 
led in the past several years, and that has contributed 
substantially to its success. Because DNDO was organized in the 
same way since its inception and had significant failures at 
that point as well.
    I think in this instance I wish there was an answer to give 
to this committee where the work had been done and to be able 
to say model A is correct or model B is correct. I don't 
believe that it is right to have multiple models running 
simultaneously. I do not know which of those models is the best 
for the Department. But I do believe--and I believe that this 
opportunity gives Congress the chance to mandate and the 
Department to carry out an examination, both itself and with an 
outside independent entity that knows how these different 
models work in the Department, in other Federal agencies, in 
private-sector organizations and determine which is the best 
model for the Department.
    Because mixed multiple models in different areas I think is 
more of a reflection of the desires of the individuals now than 
what is the most durable solution over time.
    Mr. Nelson. I agree with what Alan is saying. I don't think 
you can have this mixed model. I also think that one of the 
reasons why you've had such success at DNDO is because you have 
that tail to nose entire system in process, in place. Alan and 
I were talking earlier. You know, the original intention of the 
Department was to have a WMD office that has S&T focus when it 
was originally thought of, and instead we ended up with an S&T 
department with a WMD sub-focus.
    So we now find ourselves trending back to the original 
model that was conceived by the people that thought about this 
originally. So I would like to see those R&D efforts moved over 
into this entity. I think it is such a critical issue, and the 
understanding of the topic is so technical that it has to be 
placed under the experts to understand its information.
    Mr. Stern. Thank you. Well, nuclear detection and, for 
example, biological response, are very different beasts, even 
in concept. For example, in the area of nuclear detection, 
we're trying to detect things before they're released. Most of 
what in the bio world they consider prevention they're actually 
calling prevention for things in the nuclear world we would 
call response.
    So they're already different concepts. In that context, I 
guess I really wouldn't have a problem with two different 
approaches to development existing in the same organization. I 
do know, however, that for DNDO the integrated model is the 
right one. When I first started 5 years ago, there was, in 
fact, a push in legislation to take the R&D portion out of 
DNDO. I felt then and I feel now it's the wrong approach 
because it's very, very difficult to separate R&D from testing 
to acquisition in the overall--in the global architecture that 
DNDO is in charge of.
    So I know that the existing approach is the right one for 
DNDO. I don't necessarily know if it's right or wrong for the 
bio and chem world, but I don't know that they necessarily have 
to have the right--the same approach just to be a little bit--
make a slightly separate concept.
    One way to resolve this is to put this all including R&D 
under one big under secretary, the under secretary of science 
and technology, and turn that into a weapons of mass 
destruction unit.
    Mr. Ratcliffe. Terrific. Thank you. Mr. Cohn, as you know 
and as you just mentioned, both DNDO and OHA have had major 
acquisition failures in the past, and those acquisition 
failures have, frankly, cost taxpayers millions of dollars. I 
assume that you think that the current structure of the CBRNE 
components contributed to that problem.
    But do you think--is it your opinion that this new CBRN or 
CBRNE office will address those types of failures in the 
future?
    Mr. Cohn. I think that office as proposed poses a better 
chance of preventing those failures than the current model. As 
Dr. Brothers and others mentioned during the first panel, 
Secretary Johnson has embarked on the strengthening the 
departmental Unity of Effort Initiative which includes 
implementing a virtual management system within the Department 
and empowering the Department's leadership. It's a more 
closely-examined major program execution and major acquisitions 
through strategy, joint requirements, programming, and 
budgeting, and major acquisition oversight.
    Creating an assistant secretary who has full scope 
responsibilities across CBRNE issues, placing that individual 
into the leadership and really empowering that individual to 
speak definitively, on the one hand, in those fora, and to 
engage with the heads of the operational components and with 
the external stakeholders who, as was mentioned, are the source 
of the requirements, and who will be the end-users of what is 
developed, I think gives a better chance of creating success in 
acquisition oversight and not wasting--not leading to the same 
program cancellations and terminations that we've seen than the 
current model.
    Mr. Ratcliffe. Terrific. Thank you, Mr. Cohn.
    Mr. Nelson, given your experience in the field and in the 
interagency, I just want to make sure I have your testimony 
very clearly on how the current CBRNE structure negatively 
affects DHS's role and stature within the interagency.
    To that point, I'd like you to speak to the importance of 
DHS having a strong focal point for interagency collaboration.
    Mr. Nelson. Thank you, Mr. Chairman. It's critically 
important. You know, as I said in my written testimony, today 
there are very few single agency problems, in there are even 
fewer single agency solutions. So interagency coordination with 
Federal, and with State and local, is critically important. On 
the very basic end, you have to be able to--if I have a 
question who do I call, who do I pick up the phone and call at 
what point in that process? Right now it's so fragmented in the 
industry, in DHS, you don't know where it is on the S&T side, 
or whether it's with DNDO or with OHA. That makes it 
extraordinarily difficult.
    Moreover, when you're talking about interagency 
coordination, whether it's a meeting at the White House or any 
other interagency meeting, you usually get one seat at the 
table per department. Those individuals need to be able to 
speak for the whole of the issue. It's not convenient and 
useful to inject subject-matter experts for every single policy 
meeting. You have to have people that can go into those 
meetings that are aware of the full breadth of what is going on 
inside the Department.
    Right now there isn't a cadre of individuals inside DHS 
that can represent the Department in meetings regarding WMD 
issues at large. They have to determine what the subject is and 
then pull those individuals in.
    Mr. Ratcliffe. Okay. Thank you. So, Mr. Stern, let me 
follow up with you in that regard. Because in your testimony, 
one of the things you--to quote you, you said that the proposed 
structure, ``has the potential to diminish rather than 
strengthen the function of DNDO.''
    I'm wondering whether you think that the way this creating 
an office with the assistant secretary sort-of better evaluates 
the importance of the mission and gives DHS CBRNE programs a 
better stature and voice within the interagency?
    Mr. Stern. Yeah. So after 25 years of working, actually 
more, in the interagency, most WMD-related important meetings 
aren't WMD at large. They're nuclear, biological, chemical, 
separate. So if the nuclear part of DHS is what would in the 
new structure be a deputy assistant secretary or an office 
director, that individual might not even be invited to some of 
these meetings.
    So, yeah, I believe that in order to maintain, if not 
strengthen the role of nuclear in the DHS's structure, in fact, 
the individual in charge needs to be elevated, not diminished, 
in his or her role. It may sound overly bureaucratic, but 
having, again, worked for many years in interagency, there's a 
big difference between an office director and an assistant 
secretary and what that individual can get done.
    Mr. Ratcliffe. Gentlemen, thank you all for being here. I 
know I speak on behalf of everyone that your testimony's been 
very valuable. Obviously a number of the subcommittee Members 
weren't able to return after votes, but Members of the 
subcommittee will likely have some additional questions for you 
since they weren't able to return, that we would ask you to 
respond to those in writing.
    Pursuant to committee rule 7E, the hearing record will 
remain open for a period of 10 days. Without objection, the 
subcommittees now stand adjourned.
    [Whereupon, at 4:46 p.m., the subcommittees were 
adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Honorable Donald M. Payne, Jr. for the Department of 
                           Homeland Security
    Question 1. It has been observed that there are CBRNE functions 
from across the Department--from FEMA to NPPD--that are not included in 
the proposed realignment. How did the Department decide to include 
certain activities but not others in the reorganization proposal?
    Answer. The proposed reorganization of the Department's chemical, 
biological, radiological, nuclear, and explosives (CBRNE) functions is 
intended to focus headquarters offices on the principal objectives of 
the Unity of Effort initiative, including integrating the broad and 
complex Department of Homeland Security (DHS) mission space and 
empowering DHS components to effectively execute their operations. 
Other CBRNE functions exist within the Department, including those at 
the U.S. Customs and Border Protection and the Federal Emergency 
Management Agency. Alignment of the Department's headquarters CBRNE-
related support programs and activities will strengthen DHS operational 
activities. Since this was a reorganization of headquarters' functions 
to create a mission support office and to minimize disruption of 
operations, we did not consider programs and efforts currently executed 
by the above-mentioned operational components.
    Question 2a. The Department does not anticipate any cost savings 
from reorganization, but there is potential for new costs to be 
incurred.
    For example, would the over 200 employees of the new CBRNE Defense 
Office be co-located at some point in the future?
    Question 2b. What other costs could result from the proposed CBRNE 
Defense Office?
    Answer. The Department intends to undertake major movements of 
personnel associated with the proposed CBRNE reorganization in concert 
with the expiration of current office leases. Physical consolidation of 
the new CBRNE office may occur as early as 2018, pending approval of 
requested funding for DHS Headquarters moves to the St. Elizabeths 
Complex.
    The Department is committed to responsibly identifying ways to 
reduce its overhead costs, as exemplified by the new facilities 
consolidation pilots being undertaken in the Seattle and Boston areas, 
in order to ensure we make every dollar available to directly enable 
operations in the field. DHS will consider the new CBRNE Office, along 
with other DHS headquarters offices, as we explore other efficiencies 
proposals.
    Question 3. Dr. Brinsfield, as DHS plans to expand the scope of its 
biosurveillance capability, what impact will this have on 
prioritization and investment decisions across the biosurveillance 
enterprise for the core biosurveillance functions called for in the 
National Strategy for Biosurveillance?
    Answer. DHS is committed to countering biological threats and 
hazards and implementing the National Strategy for Biosurveillance. The 
2014 DHS Quadrennial Homeland Security Review included biological 
threats and hazards as a top homeland security risk. Since the 
Department's biosurveillance activities are performed by the OHA, which 
is being brought into the new CBRNE entity in its entirety, the 
reorganization will not have an immediate effect on biosurveillance. In 
the longer run, bringing the Department's biological risk assessment 
activities within the CBRNE entity should improve our ability to ensure 
that our biosurveillance efforts are optimally informed about the 
evolving nature of biological risks and hazards. However, these efforts 
will also be informed by CBRNE-related projects and expertise remaining 
in the Science and Technology (S&T) Directorate and other parts of DHS, 
and maintaining the close working relationships between the CBRNE 
entity and the rest of the Department will be necessary to optimally 
inform biosurveillance and other activities.
    This CBRNE reorganization is focused on making smart choices in 
consolidating DHS headquarters functions to address threats. The goal 
is not to change the scope of our biosurveillance capability but rather 
to be better able to adapt and adjust to threats as they evolve. 
Further, the reorganization will help amplify existing efforts by 
looking across the entire space to find the gaps and work together to 
address them.
    Question 4. Dr. Brinsfield, this year, the Office of Health Affairs 
Chemical Defense Program conducted a Chemical Demonstration Project in 
Baltimore, Maryland. Within the next year, the Demonstration Project 
will be expanded to four new cities.
    How will the Department ensure that on-going activities, such as 
the Chemical Demonstration Project, are not interrupted?
    Answer. Since the Chemical Demonstration Project is conducted by 
the OHA, which is being brought into the new CBRNE entity in its 
entirety, the reorganization will not have an immediate effect on this 
program. Rather, this reorganization is intended to integrate the broad 
and complex DHS mission space and empower DHS components to more 
effectively execute their operations. The Chemical Defense Program will 
continue to pursue its projects and provide invaluable insight and 
expertise to DHS senior leaders, the Federal Government, and State and 
local communities. OHA chemical demonstration projects are currently 
underway in four cities: Houston, TX; Boise, ID; New Orleans, LA, and 
Nassau County, NY. These four cities were chosen through a competitive 
selection process evaluating their chemical threat risk (city and 
venue) and community interest and goals to improve chemical incident 
preparedness. I can assure you that, as a critical portion of our 
chemical defense portfolio, the demonstration projects will not be 
interrupted due to the forming of the new CBRNE office. It is our 
intent through the consolidation of the CBRNE missions to increase 
awareness of the Chemical Defense Program.
    The demonstration projects focus on improving information flow, 
enhancing decision making and aligning resources to optimize emergency 
response. At the completion of all the demonstration projects, OHA will 
have examined in detail where the leverage points within the emergency 
response system exist and will have identified where specific solutions 
can address the greatest challenges, limitations, and gaps each 
community faces. Our analysis is intended to lead to the delivery of a 
set of preparedness tools, shared best practices, and guidance for 
comprehensive community preparedness to a large-scale chemical 
incident.
    Question 5. Dr. Brinsfield, does the Department anticipate that the 
consolidation would have an effect on the mission of the National 
Biosurveillance Integration Center?
    Answer. Since the National Biosurveillance Integration Center is 
located within the OHA, which is being brought into the new CBRNE 
entity in its entirety, the reorganization will not have an immediate 
effect on its operations or mission. Rather, this reorganization is 
intended to integrate the broad and complex DHS mission space and 
empower DHS components to effectively execute their operations. OHA's 
programs, including the National Biosurveillance Integration Center 
(NBIC), will continue within the new CBRNE organization. In meeting its 
mission to integrate information about threats to human, animal, plant, 
and environmental health, NBIC already shares information with its 
partners regarding a variety of CBRNE and emerging infectious disease 
threat sources which will continue and complement the activities of the 
new organization. For example, past reporting has occurred during 
nuclear power plant disasters, chemical spills, natural disasters, and 
novel disease outbreaks such as Ebola. NBIC frequently taps into the 
subject-matter expertise resident within OHA to field a range of 
requests from its stakeholders. This reach-back capability will only be 
strengthened within the new structure as NBIC will have more ready 
access to the considerable radiological, nuclear, and explosive SMEs 
consolidated in the new organization. The Department sees the 
reorganization as an opportunity to capitalize on the concentration of 
CBRNE expertise to enhance the mission of NBIC.
    Question 6. Dr. Brinsfield, the current BioWatch system has been in 
the field for over a decade and the National Academies and the GAO have 
raised questions on the value this type of biosurveillance adds across 
the broader threat arena. What impact will expanding the scope of DHS's 
traditional biosurveillance efforts have on the BioWatch program?
    Answer. DHS is committed to countering biological threats and 
hazards. The 2014 DHS Quadrennial Homeland Security Review included 
biological threats and hazards as a top homeland security risk. The 
BioWatch Program is the only early warning system for aerosolized 
biological threats and is a key element of DHS's strategy to manage 
biological risk, per the 2014 QHSR. BioWatch helps build the 
preparedness of local jurisdictions in case of a biological attack, 
informing and equipping decision makers at the local, State, and 
Federal levels with the information they need to make decisions that 
can save lives and mitigate damage. The goal of this CBRNE 
reorganization is not to change the scope of our biosurveillance 
efforts or the role for BioWatch, per se, but rather to be better able 
to adapt and adjust to threats as they evolve. BioWatch will benefit 
from the enhanced coordination, as will all of OHA's programs. In 
addition, the Secretary identified BioWatch as the DHS Program of 
Record for biosurveillance and directed that the technology used in the 
BioWatch Program be updated. Consistent with the Secretary's decision, 
the OHA BioWatch Program is actively working with DHS S&T, our Federal 
partners and partners at the State and local level to identify new and 
better technologies and field them as soon as possible.
    The use of biodetection, while complementary with surveillance, 
provides certain advantages over medical surveillance alone. Medical 
surveillance detects the presence of disease in the population after 
people become symptomatic. Biodetection detects the presence of a 
potential attack prior to the population becoming symptomatic and 
allows for the dispensing of antibiotics before symptoms appear, making 
for a more efficient response. These benefits of biodetection were 
reinforced by an independent analysis conducted by both the Institute 
for Defense Analyses in 2013 and Sandia National Laboratory in 2012. In 
addition, the environmental surveillance provided by BioWatch provides 
more precise information on timing, specific location and the type of 
agent used in an attack.
    Question 7. If Congress were to approve the reorganization 
proposal, what specific steps would the Department take to limit the 
negative impact on employee morale?
    Answer. The morale of our employees is a priority for the 
Department. The deputy secretary is undertaking a number of initiatives 
to find innovative ways to engage employees, share employee ideas, and 
address concerns regarding transparency in hiring, promotion, and 
training opportunities. These principles will be practiced within the 
new CBRNE office. Specifically, the Department will engage employees 
and provide avenues for information sharing and feedback between 
leadership and staff throughout the reorganization process. The 
Department will develop a change management and communications plan to 
help make the process as smooth as possible for all employees.
    Open communication throughout the included organizations and two-
way information forums will reduce the negative impact on morale. 
Effective change management will be important as this reorganization 
takes place, and we have been keeping our employees apprised and 
engaged in the process. We are committed to helping our employees 
achieve our mission through this new organization, and we will continue 
to support them and help them in moving the mission forward.
    Question 8. Two years into the realignment, what should this 
committee be looking for, in the way of metrics, to know whether it was 
a success?
    Answer. The new CBRNE office should be judged on how well the 
Department's CBRNE policies, strategies, plans, budgets, acquisitions, 
and other activities are synchronized across the breadth of DHS 
stakeholders and how they are driving improved operational results. We 
will not be judging the new organization solely by the publication of 
new guidance documents. Rather, we will assess the effectiveness of the 
new CBRNE Office, as we do with other elements of DHS, on the success 
of: CBRNE capability requirements development; sustainable investment 
in CBRNE-related capabilities; CBRNE acquisition program health; CBRNE 
operational plan development and exercises; and ultimately, our 
response effectiveness to CBRNE threats and incidents, whether 
naturally-occurring or man-made.
    Question 9. The proposed consolidation for the CBRNE office appears 
a bit lopsided. The CBRNE office will do R&D for radiological and 
nuclear activities, but S&T will keep researching chemical and 
biological technologies.
    Does the Department anticipate requesting future reorganizations to 
further align CBRNE R&D functions?
    Answer. The Department does not have future plans to further align 
chemical, biological, radiological, nuclear, and explosives Research 
and Development (R&D) functions. One of the driving principles for this 
reorganization has been to ``preserve programs and activities that are 
currently working.'' Therefore, the proposed structure for R&D seeks to 
minimize the disruption to CBRNE R&D activities. Due to the current 
synergies between chemical and biological R&D within S&T and the 
facilities at which the work is conducted, the R&D function will not 
transfer to the CBRNE Office. The CBRNE office would provide 
requirements and work closely with S&T for the needed chemical and 
biological R&D for the office. Radiological and nuclear R&D, which is 
currently performed extremely effectively in DNDO, would move to the 
new CBRNE office and continue to receive R&D requirements from the DHS 
operating components.
    Question 10a. There are concerns about how the CBRNE reorganization 
would affect the existing relationships that OHA, S&T, and DNDO have 
with stakeholder groups.
    Under the reorganization, how does the Department envision 
sustaining relations with stakeholder groups?
    Question 10b. For example, if the assistant secretary determined 
that the BioWatch program no longer aligned with the current threat 
picture and decide to nix the program, how would the Department go 
about sustaining its partnerships with the State and local public 
health officials who participated in BioWatch?
    Question 10c. Similarly, how does the Department expect Federal 
interagency relationships to be affected by the reorganization?
    Answer. OHA, S&T, and DNDO, and the other offices included in this 
reorganization, will continue to provide the same level of support to 
their Federal, State, and local stakeholders and will work to ensure 
minimal disruption to their partners. One of the focus areas of the new 
organization is to ensure strong coordination processes and procedures 
both internally and with other Departmental and interagency partners to 
advance the DHS CBRNE agenda through a single point of contact on CBRNE 
issues. In this new structure, when an agency reaches out to DHS, we 
will be coordinated and ready to work with their equivalent offices. 
Similarly, when State, local, non-Governmental, and private partners 
reach to DHS for help, we can assist them regardless of the issue, or 
the changing nature of the threat they face.
    The BioWatch Program is the only early warning system for 
aerosolized biological threats and is a key element of DHS's strategy 
to manage biological risk, per the 2014 QHSR. There are no plans to 
cancel the BioWatch program. Further, the assistant secretary for CBRNE 
would use strategic prioritization documents and Departmental review 
processes when implementing the Department's priority programs. It 
should be noted that a major strength of the BioWatch Program is the 
interaction that it has at virtually all levels of Government. The 
BioWatch Program is building preparedness by coordinating and/or 
participating in 30-plus exercises/drills annually, creating guidance 
documents, providing essential training and technical assistance to 
stakeholders Nation-wide, and enabling a forum for Federal, State, and 
local stakeholders to share all types of relevant data and information 
during an act of bioterrorism. Also, the BioWatch Program has forged 
strong ties at the Federal level, expanding cooperation and 
strengthening ties with a number of agencies. This capability will be 
maintained and further leveraged within the new CBRNE office.
  Question From Honorable Sheila Jackson Lee for Kathryn H. Brinsfield
    Question. Biological threats like Ebola can cross our borders 
without notice. An apparently healthy person that enters the United 
States can become infectious within 21 days. Ebola is not the worst of 
the highly infectious diseases--only an example of one of the 
challenges of a biological early detection system. We have hoped for an 
automated system that could detect chemical and perhaps biological 
agents on a person through an early detection system. The experience of 
the last year with Ebola raises questions about the role first 
responders play in early detection and containment.
    The focus of much of the work on detection and containment efforts 
may focus on emerging infectious diseases, which can be defined as 
those infectious diseases that have newly appeared in a population or 
have existed but are rapidly increasing in incidence or geographic 
range, or that are caused by one of the NIAID Category A, B, or C 
priority pathogens.
    Ebola is designated as a Category A infectious disease along with 
anthrax, botulism, plague, and small pox. It is likely that should a 
terrorist attack come in this form, it would likely be discovered after 
people start to become ill.
    Should we be more focused on training, equipment, and protocols for 
first responders on the local and State level to better prepare for 
biological threats?
    Would a survey conducted by local health departments of hospitals 
be helpful in learning how prepared they may be to address highly 
infectious diseases that may arrive without notice?
    Answer. The training, equipment, and protocols for first responders 
are of primary importance for the Department. For example, in the past 
year OHA has published two guidance documents for first responders in 
collaboration with our interagency partners: Patient Decontamination in 
a Mass Chemical Exposure Incident: National Planning Guidance for 
Communities; and First Responder Guidance for Improving Survivability 
in Improvised Explosive Device (IED) and/or Active Shooter Incidents. 
Past guidance has focused on protecting responders against the anthrax 
threat. In addition to providing guidance, OHA is also developing a 
pilot initiative to educate first responders about anthrax and offer 
them voluntary access to the anthrax vaccine.
    OHA collaborates with National emergency medical service (EMS) 
organizations and Federal Government entities to help identify EMS 
system needs and possible solutions and engages EMS stakeholders 
Nation-wide to improve response coordination between jurisdictions and 
agencies, across State lines, and with the Federal Government. Through 
these collaborations, OHA contributed to interagency guidance on 
personal protective equipment for first responders in response to the 
Ebola threat; and worked with FEMA to make sure communities can use 
their grant dollars to purchase personal protective equipment for non-
law enforcement personnel responding to Improvised Explosive Device 
(IED) or active-shooter incidents. OHA also participates in the 
Interagency Board, a group of emergency preparedness and response 
practitioners who assist in the development and implementation of 
performance criteria, standards, test protocols, and requirements for 
all-hazards incident response equipment.
    The BioWatch program works with State and local officials and 
responders in jurisdictions across the country to develop clear and 
detailed plans to respond to biological agent detection, and the NBIC 
distributes reports on emerging and current biological threats to 
approximately 1,500 State and local officials. We are also developing a 
set of preparedness tools, shared best practices, and guidance for 
comprehensive community preparedness to a large-scale chemical incident 
through our chemical demonstration projects. We will continue to 
prioritize supporting first responders, in coordination with our DHS 
and interagency partners, to ensure they get the tools, resources, and 
training they need to act as the Nation's first line of defense.
    In the event of a National health threat/emergency the Department 
of Health and Human Services (HHS) Assistant Secretary for Preparedness 
and Response (ASPR) and HHS's Centers for Disease Control and 
Prevention (CDC) have substantial responsibilities. ASPR is the chief 
advisor on public health and medical preparedness for and response to 
emergencies. It maintains a database of hospitals and associated 
resources, as well as other facilities capable of providing health 
care; it also manages a program that can obtain near-real-time counts 
of available beds under several bed categories. Among CDC's public 
health responsibilities, specifically in the response to Ebola, were 
designing the tiered health care system approach (front-line 
facilities, assessment hospitals, and Ebola treatment centers), 
deploying teams of experts to hospitals at the request of States, and 
working with States and hospitals to identify any operational gaps and 
recommend improvements. The CDC also issued Interim Guidance for 
Preparing Frontline Healthcare Facilities for Patients Under 
Investigation for Ebola Virus Disease.
   Question From Honorable Donald M. Payne, Jr. for Reginald Brothers
    Question 1a. Dr. Brothers, historically, the Science and Technology 
Directorate struggled to get its footing in the Department, but seems 
to have made progress in recent years.
    How does the Department plan to address the unavoidable employee 
morale implications for workers impacted by the stripping of chem-bio 
risk assessment responsibilities from S&T?
    Answer. As stated previously, the morale of our employees is a 
priority for the Department. The Deputy Secretary is undertaking a 
number of initiatives to find innovative ways to engage employees, 
share employee ideas, and address concerns regarding transparency in 
hiring, promotion, and training opportunities. These principles will be 
practiced within the new CBRNE office.
    S&T's workforce is committed to the Department's missions and the 
Secretary's Unity of Effort initiative. We anticipate minimal morale 
impact, but S&T leadership is committed to open and transparent 
communication with any affected staff to address concerns and mitigate 
any negative perceptions. Open communication throughout the included 
organizations and two-way information forums will also reduce the risk 
to negative impact on morale. We are committed to helping our employees 
achieve our mission through this new organization, and we will continue 
to support them and help them achieve their goals moving forward.
    S&T has initiated several broader morale initiatives which we 
believe will also mitigate any potential negative effects. We have 
established, for example, an Employee Council with several 
subcommittees, all comprised of employees from a cross-section of the 
S&T to develop solutions and improved procedures in key areas of our 
business.
    Question 1b. How will losing the risk assessment component of its 
work affect S&T's chem-bio R&D responsibilities?
    Answer. The Terrorism Risk Assessments and Biodefense Knowledge 
Center are integrated elements of S&T's Chemical and Biological Defense 
R&D portfolio and help inform projects dealing with emerging and future 
threats. With the proposed move to a new CBRNE office, certain changes 
and additional coordination will need to be made to ensure the 
continued operation and success of the R&D portfolio. S&T would work 
closely with the proposed CBRNE office to ensure that S&T's needs for 
longer-term assessments are still met.
    Question 1c. If DHS expanded its bio-surveillance capability, how 
would it ensure its efforts do not duplicate those performed by other 
agencies, such as the Departments of Health and Human Services, 
Agriculture, the Interior, and the Environmental Protection Agency?
    Answer. As stated previously, this CBRNE reorganization is focused 
on making smart choices in consolidating DHS headquarters functions to 
address threats. The goal is not to change the scope of our 
biosurveillance capability, but rather to be better able to adapt and 
adjust to threats as they evolve. The reorganization should not cause 
any duplication of efforts performed by other agencies, and 
biosurveillance activities will continue to be coordinated with other 
Federal agencies through established mechanisms like working groups, 
interagency policy committees, and requirements generation activities. 
We believe the CBRNE office will help to strengthen and streamline 
interagency relationships and collaboration to advance the DHS CBRNE 
agenda, by creating one place in DHS headquarters where all Federal 
agencies can go to find the right expertise on CBRNE-related issues.
   Questions From Honorable Sheila Jackson Lee for Reginald Brothers
    Question 1. Dr. Brothers, the Science and Technology Office over 
the course of its existence had difficulty developing a Federal 
laboratory testing process that certifies technology for its ability to 
perform as needed. You have an exceptional background in science and 
technology which includes extensive experience in the management of DOD 
laboratories.
    What have you been able to do to improve the laboratory 
accreditation and testing process?
    Answer. S&T is responsible for research, development, testing, and 
evaluation in DHS. To assist the under secretary in fulfilling 
responsibilities for test and evaluation, the Secretary delegated 
authorities to the director of operational test and evaluation (DOT&E). 
The DOT&E has well-established procedures for supporting program 
development of realistic operational tests. However, this type of 
testing typically occurs late in the acquisition process, after initial 
production has begun, in order to approve proceeding to full rate 
production. It has been our observation that a key determinant of 
successful acquisition is ensuring the program properly sets the 
conditions to begin initial production. We continue to work with our 
partners in the DHS management directorate and in DHS components to 
improve early engagement and strengthen acquisition processes by 
involving S&T in developmental testing and evaluation activities, and 
providing systems engineering support for assessment of technical 
risks. If you are interested in more information, we would be happy to 
provide you or your staff a more in-depth briefing on the subject.
    Question 2. Has the Office of Science and Technology been able to 
compete for and recruit the top talent you need? If no, why not?
    Answer. Human Resources S&T managers have used a variety of hiring 
authorities to attract qualified applicants. For example, S&T makes 
optimal use of Homeland Security Act of 2002 Section 307 to hire 
eminent experts in science and engineering under the Administratively 
Determined (AD) hiring authority, with 27 AD employees on-board now or 
in the application pipeline. We also use the Intergovernmental 
Personnel Act authority to augment our ability to obtain experts in 
science and engineering for temporary appointments. S&T has also 
utilized a host of short-term detail assignments, both reimbursable and 
non-reimbursable, to be able to acquire individuals with specific 
program-related skills and experience when needed.
    Question 3. Is there something that the committee can do to improve 
the ability of your office to identify technology needs and to inform 
the committee on what innovations are needed but are not currently 
available?
    Answer. S&T appreciates that Congress has been supportive of the 
organization and the need in the Department for wider use of better 
technology. Through Unity of Effort-focused bodies like the Deputy's 
Management Action Group and Joint Requirements Council, S&T has made 
great strides to draw closer to the components and more effectively 
identify and address their technology gaps and needs. New S&T efforts 
underway such as the Targeted Innovation Technology Acceleration 
Network (TITAN) along with enduring efforts such as the Centers of 
Excellence are ensuring that S&T connects the Homeland Security 
Enterprise to innovation communities in small businesses, at 
universities, and elsewhere around the country and abroad. As S&T 
continues to implement new and better ways to deliver innovative 
solutions, we will also continue to work with Congress to keep Congress 
informed of the progress we are making. If you, or your staff, are 
interested in more information on S&T's vision for the future of the 
organization, we would be happy to provide a more in-depth briefing on 
the subject.
    Questions From Honorable Sheila Jackson Lee for Huban A. Gowadia
    Question 1. Dr. Gowadia the 18th Congressional District of Texas is 
located in the city of Houston. Houston is the Nation's fourth-largest 
city, and has one of the largest ports in the Nation, an international 
airport and a complex State and inter-State highway system.
    As you know, nuclear threats may involve taking radiological 
materials that are used for beneficial medical or industrial purposes 
such as fuel or spent fuel for a nuclear power plant, radiological 
material used in diagnosis or treatment of patients, or industrial 
material. The tracking and management of these materials would be of 
importance to National, State, and local authorities.
    Should the materials come under the control of terrorists could 
they be combined with an explosive device?
    Answer. If stolen or otherwise acquired radiological materials came 
into the possession of a terrorist, it is possible they could be used 
in an explosive radiological dispersal device, otherwise known as a 
``dirty bomb.''\1\ Such a bomb uses conventional explosive to disperse 
radiological material.
---------------------------------------------------------------------------
    \1\ National Academies and U.S. Department of Homeland Security, 
Radiological Attack: Dirty Bombs and Other Devices. Washington, DC 
(2004), 1. Retrieved from http://www.dhs.gov/publication/radiological-
attack-fact-sheet.
---------------------------------------------------------------------------
    Question 2. Could a weapon like this contaminate a large area while 
also exposing people to immediate and long-term health risks?
    Answer. It is extremely difficult to design a dirty bomb that would 
deliver radiation doses high enough to cause acute radiation health 
effects or fatalities in a large number of people. Near-term injuries 
from a dirty bomb would primarily occur from the heat, debris and force 
of the conventional explosion used to disperse the radioactive 
material, affecting only individuals close to the site of the 
explosion.\2\ In addition, however, a dirty bomb is expected to have 
economic and behavioral health consequences. For example, radioactive 
contamination from a dirty bomb could deny use of the area and 
necessitate an expensive clean-up, thereby causing a disruption to 
lives and commerce. It would also likely cause anxiety to those in the 
immediate and surrounding areas who believe believed they had been 
exposed to radiation.\3\
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ Ibid.
---------------------------------------------------------------------------
    The long-term health effect of exposure to radiation from a dirty 
bomb is the elevated risk of developing cancer later in life, 
commensurate with the level of radiation dose incurred, although the 
risk is limited.\4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    Question 3. What can be done to track the use and disposal of 
radiological materials found in industrial, research, and medical 
devices that could pose a threat if obtained by terrorists?
    Answer. To monitor the use and disposal of radiological materials 
found in industrial, research, and medical applications, the U.S. 
Nuclear Regulatory Commission (NRC) uses the National Source Tracking 
System (NSTS), a secure web-based database that tracks Category 1 and 2 
radioactive sources \5\ regulated by the NRC and the Agreement 
States.\6\ NSTS tracks data spanning the life cycle of the source from 
manufacture through shipment receipt, to decay, and burial. This system 
fulfills the U.S. Government's commitment to implement a National 
source registry, as described in the Code of Conduct on the Safety and 
Security of Radioactive Sources, which the International Atomic Energy 
Agency (IAEA) issued in January 2004.\7\
---------------------------------------------------------------------------
    \5\ International Atomic Energy Agency, Categorization of 
Radioactive Sources, Safety Guide No. RS-G-1.9 (2005).
    \6\ Nuclear Regulatory Commission Agreement State Program, http://
www.nrc.gov/about-nrc/state-tribal/agreement-states.html (June 30, 
2015).
    \7\ International Atomic Energy Agency, Code of Conduct on the 
Safety and Security of Radioactive Sources. Vienna, Austria. (2004) 6. 
Retrieved from http://www-pub.iaea.org/MTCD/publications/PDF/code-
2004_web.pdf.
---------------------------------------------------------------------------
     Questions From Honorable Donald M. Payne, Jr. for Alan D. Cohn
    Question 1. If Congress were to approve the reorganization 
proposal, what specific steps would the Department take to limit the 
negative impact on employee morale?
    Answer. Reorganization of DHS's headquarters CBRNE functions is an 
opportunity to improve morale across the Department's CBRNE functions. 
Employee morale is enhanced in any organization when:
  <bullet> Mission responsibility is clearly defined and matched with 
        appropriate authority;
  <bullet> The leadership structure is lean and sensible;
  <bullet> The organization's leaders are held accountable for 
        excellence and hold their subordinates accountable for 
        excellence;
  <bullet> The organization recruits, trains, and focuses on retaining 
        top talent, creates progressive opportunities for advancement 
        into either leadership or senior technical positions, and 
        ensures a robust interchange of personnel and information 
        between headquarters entities, the Department's operating 
        components, and the Department's external stakeholders.
    Reorganization gives the Department and the leaders of the 
Department's CBRNE functions the opportunities to implement or enhance 
these elements.
    Question 2. Two years into the realignment, what should this 
committee be looking for, in the way of metrics, to know whether it was 
a success?
    Answer. The Department has put forward a set of goals for the 
proposed consolidation of its CBRNE headquarters functions, which 
provide the foundations for outcomes and metrics such as the following:
  <bullet> Provide Clear Roles and Responsibilities for DHS HQ and 
        Operating Components.--The Secretary has formally delegated 
        CBRNE-related authorities and designated CBRNE-related 
        responsibilities, and DHS headquarters offices and operating 
        components publicly identify and rely on the DHS CBRNE 
        headquarters office for those responsibilities assigned to the 
        CBRNE office.
  <bullet> Enable DHS to Formulate and Communicate Consistent 
        Departmental Positions on CBRNE Issues.--Department offices and 
        operating components, interagency partners, external 
        stakeholders, and Congress consistently identify the CBRNE 
        office as the source for consolidated, integrated, and sensible 
        CBRNE-related Departmental positions on CBRNE issues.
  <bullet> Provide DHS the Ability to Effectively Structure, Oversee, 
        and Execute Major CBRNE-Related Acquisitions.--The CBRNE 
        office, working with the relevant component Chief Acquisition 
        Executives, the DHS Management Directorate, the DHS Joint 
        Requirements Council and Investment Review Board, and the 
        Department's overall governance bodies (i.e. the Deputy's 
        Management Action Group and the Senior Leadership Council), has 
        ensured that all CBRNE-related programs on the DHS Major 
        Acquisition Oversight List are properly aligned to mission, 
        have clearly-defined joint requirements responsive to 
        operational needs, are funded at the levels specified in their 
        acquisition program baselines, and are performing at the level 
        anticipated in their program designs.
    These or similar metrics can serve as effective proxies for the 
success of the consolidated DHS headquarters CBRNE office.
    Question 3. The proposed consolidation for the CBRNE office appears 
a bit lopsided. The CBRNE office will do R&D for radiological and 
nuclear activities, but S&T will keep researching chemical and 
biological technologies.
    Does the Department anticipate requesting future reorganizations to 
further align CBRNE R&D functions?
    Answer. As a private citizen, I do not know and cannot speculate on 
whether the Department anticipates requesting future reorganizations of 
the Department's CBRNE R&D functions. As discussed at the hearing, it 
is difficult to say with certainty whether the current R&D model for 
radiological and nuclear activities, the current R&D model for chemical 
and biological activities, or a third model, is best-suited to ensuring 
effective mission execution and guarding against the failure of major 
systems acquisitions. However, this is an answerable question, and 
Congress and the Department should actively seek that answer. For that 
reason, Congress should mandate that the Department assess the 
effectiveness of each of these models, and should mandate than an 
independent study be conducted by an organization with familiarity with 
these models as well as those of other Federal departments and agencies 
and corporate entities. Congress can then revisit this last CBRNE-
related organizational question once both the Department and an 
independent organization have completed their review.
    Question 4a. There are concerns about how the CBRNE reorganization 
would affect the existing relationships that OHA, S&T, and DNDO have 
with stakeholder groups.
    Under the reorganization, how does the Department envision 
sustaining relations with stakeholder groups?
    Question 4b. For example, if the assistant secretary determined 
that the BioWatch program no longer aligned with the current threat 
picture and decide to nix the program, how would the Department go 
about sustaining its partnerships with the State and local public 
health officials who participated in BioWatch?
    Question 4c. Similarly, how does the Department expect Federal 
interagency relationships to be affected by the reorganization?
    Answer. As a private citizen, I do not know and cannot speculate 
about the Department's plans for how a consolidated CBRNE organization 
would interact with its partners and stakeholders. However, 
consolidation of the Department's headquarters CBRNE functions provides 
the opportunity to enhance the Department's relationships with those 
partners and stakeholders. Consolidation of these functions allows the 
Department to make decisions concerning its portfolio of CBRNE programs 
and activities in a consolidated, integrated, and transparent way. 
Consolidation also provides a single senior official with true 
responsibility and authority across the Department's CBRNE headquarters 
responsibility to serve as the senior point of contact for the 
Department's partners and stakeholders, and the spokesperson for the 
Department with respect to external partners and stakeholders. So, for 
example, should the Department decide that a specific program--or 
approach for executing a program--is no longer sound, the Department 
would need to make such a decision and determine the best path forward 
in conjunction with its interagency and non-Federal partners and 
stakeholders. A single DHS headquarters CBRNE official, working 
together with the Department's leadership and the Department operating 
components that maintain the operational relationships with the 
relevant partners and stakeholders, would better enable the Department 
to enhance its stakeholder engagement in such a situation.
     Questions From Honorable Donald M. Payne, Jr. for Warren Stern
    Question 1. If Congress were to approve the reorganization 
proposal, what specific steps would the Department take to limit the 
negative impact on employee morale?
    Answer. Response was not received at the time of publication.
    Question 2. Two years into the realignment, what should this 
committee be looking for, in the way of metrics, to know whether it was 
a success?
    Answer. Response was not received at the time of publication.
    Question 3. The proposed consolidation for the CBRNE office appears 
a bit lopsided. The CBRNE office will do R&D for radiological and 
nuclear activities, but S&T will keep researching chemical and 
biological technologies.
    Does the Department anticipate requesting future reorganizations to 
further align CBRNE R&D functions?
    Answer. Response was not received at the time of publication.
    Question 4a. There are concerns about how the CBRNE reorganization 
would affect the existing relationships that OHA, S&T, and DNDO have 
with stakeholder groups.
    Under the reorganization, how does the Department envision 
sustaining relations with stakeholder groups?
    Answer. Response was not received at the time of publication.
    Question 4b. For example, if the assistant secretary determined 
that the BioWatch program no longer aligned with the current threat 
picture and decide to nix the program, how would the Department go 
about sustaining its partnerships with the State and local public 
health officials who participated in BioWatch?
    Answer. Response was not received at the time of publication.
    Question 4c. Similarly, how does the Department expect Federal 
interagency relationships to be affected by the reorganization?
    Answer. Response was not received at the time of publication.
Questions From Honorable Donald M. Payne, Jr. for Rick ``Ozzie'' Nelson
    Question 1. If Congress were to approve the reorganization 
proposal, what specific steps would the Department take to limit the 
negative impact on employee morale?
    Answer. Response was not received at the time of publication.
    Question 2. Two years into the realignment, what should this 
committee be looking for, in the way of metrics, to know whether it was 
a success?
    Answer. Response was not received at the time of publication.
    Question 3. The proposed consolidation for the CBRNE office appears 
a bit lopsided. The CBRNE office will do R&D for radiological and 
nuclear activities, but S&T will keep researching chemical and 
biological technologies.
    Does the Department anticipate requesting future reorganizations to 
further align CBRNE R&D functions?
    Answer. Response was not received at the time of publication.
    Question 4a. There are concerns about how the CBRNE reorganization 
would affect the existing relationships that OHA, S&T, and DNDO have 
with stakeholder groups.
    Under the reorganization, how does the Department envision 
sustaining relations with stakeholder groups?
    Answer. Response was not received at the time of publication.
    Question 4b. For example, if the Assistant Secretary determined 
that the BioWatch program no longer aligned with the current threat 
picture and decide to nix the program, how would the Department go 
about sustaining its partnerships with the State and local public 
health officials who participated in BioWatch?
    Answer. Response was not received at the time of publication.
    Question 4c. Similarly, how does the Department expect Federal 
interagency relationships to be affected by the reorganization?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
